<html>
<title> - [H.A.S.C. No. 112-103]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-103]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                           FEBRUARY 17, 2012


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
73-429                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Friday, February 17, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request from the Department of the Army...     1

Appendix:

Friday, February 17, 2012........................................    43
                              ----------                              

                       FRIDAY, FEBRUARY 17, 2012
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

McHugh, Hon. John, Secretary of the Army.........................     4
Odierno, GEN Raymond T., USA, Chief of Staff, U.S. Army..........     7

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John, joint with GEN Raymond T. Odierno.........    50
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Smith, Hon. Adam.............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Johnson..................................................   107

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   114
    Mr. Conaway..................................................   120
    Mr. Critz....................................................   122
    Mr. Franks...................................................   115
    Mr. Loebsack.................................................   115
    Mr. McKeon...................................................   111
    Mr. McKeon, Mr. Bartlett, Mr. Reyes, and Mr. Brooks..........   112
    Mr. Owens....................................................   121
    Mr. Palazzo..................................................   127
    Ms. Pingree..................................................   118
    Mrs. Roby....................................................   127
    Mr. Rogers...................................................   114
    Mr. Runyan...................................................   124
    Mr. Ruppersberger............................................   123
    Mr. Schilling................................................   123
    Mr. Scott....................................................   127
    Mr. Shuster..................................................   118
    Mr. Smith....................................................   112
    Ms. Tsongas..................................................   116
    Mr. Turner...................................................   113
    Mr. Wittman..................................................   121
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 16, 2012.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. We just got 
notice that the rule was voice voted. They were going to have a 
vote about 10:00. So they said final votes will be at about 
10:45. So we will start to get as far as into it as we can, and 
then we will go vote, and with your patience, we will be back 
as quickly as we can.
    Good morning. Thank you for joining us today as we consider 
the President's fiscal year 2013 budget request for the 
Department of the Army.
    Secretary McHugh, General Odierno, thank you for being 
here.
    Secretary McHugh, it is great to see you again. Thank you 
for your continued service.
    General Odierno, the 38th Chief of Staff of the Army, 
welcome to your first of many posture hearings. I am sure you 
are glad to hear that. Our Nation is very fortunate to have the 
two of you leading our Army during these challenging times.
    We clearly understand the challenges the Department of Army 
faced in crafting this budget request, and we know you probably 
wouldn't be here if you didn't strongly support it.
    What it boils down to is, based on this budget request, 
what is the risk associated with the Army's ability to meet the 
National security needs of this Nation? This is what we need 
your help with; not only the risks, but the critical 
assumptions behind these risks.
    Many years ago, the Army testified in front of the House 
Subcommittee on Armed Services. I would like to read three 
quotes from the Army's testimony:

         ``LWe have the best men in the Army today that we have 
        ever had in peacetime. And although we have a number of 
        critical equipment problems yet to solve, I can assure 
        you that our troops, with the equipment they have, 
        would give a good account of themselves if called 
        upon.''

         ``LWithin a fixed budget, the Army can obtain greatest 
        effectiveness only by maintaining a delicate balance 
        between personnel and equipment.''

         ``LWe are supporting this budget that will provide 
        only 10 divisions because we realize the necessity to 
        integrate Army requirements with those of the other 
        services within our national budget. And we will, of 
        course, do everything within our power to lessen the 
        risk that such a reduction must by necessity entail.''

    These statements were made in January 1950. Six months 
later, a 500-man battalion-sized task force from the 24th 
Infantry Division, under Lieutenant Colonel Charles Smith, Task 
Force Smith was rushed to Korea on transport planes to block 
the North Korean advance. You know the rest of the story. Task 
Force Smith was outnumbered 10 to 1, and although they 
inflicted 127 casualties, the task force suffered 181 
casualties.
    It is worth noting that more soldiers weren't sent with 
Task Force Smith because the Air Force didn't have enough 
transport planes. It is worth noting that 2.36-inch bazookas 
that Task Force Smith fired at the North Korean T-34 tanks just 
bounced off and had no effect. The modernized 3.5 bazooka had 
been developed at the end of World War II but was terminated 
because of budget cuts.
    The point is that you can have a well-led, trained and 
equipped force, and it can still be hollow if it isn't properly 
modernized and if you can't get it to the right place at the 
right time. Please help the members of this committee 
understand how, under the context of the budget before us, the 
Army is prepared to avoid the mistakes that led to Task Force 
Smith.
    Finally, and I really mean this, I can't think of a better 
team than Secretary McHugh, and General Odierno to lead our 
Army during these challenges times.
    Again, thank you both for your selfless service, and I look 
forward to your testimony. Member--Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I, too, want to join you in your thanks and praise for 
General Odierno and Secretary McHugh. We cannot possibly have 
two more capable folks leading the Army. I appreciate your hard 
work on behalf of our country, and we particularly appreciate 
all of the hard work that our soldiers have done over the 
course of last 10 years fighting two major ground wars and then 
fighting them very, very well. They performed at the 
expectations, and I am sure we all had for them, but still 
very, very high level. We appreciate the sacrifices that all of 
the soldiers have made in the last 10 years and their families.
    And I believe the Chairman laid out correctly the challenge 
that we face as we have now drawn down in Iraq and we begin to 
draw down in Afghanistan, that means major changes for all of 
the services certainly, but for the Army in particularly, as 
the largest force that was, and is, deployed in those two 
locations.
    How do we do that responsibly? How do we make sure that as 
we change the size of force, as we change where they are 
deployed, we meet the requirements of our strategy and of our 
national security needs. And I completely agree with the 
Chairman that that is most what this committee wants to hear 
from you and what we are most focused on working with you on in 
the months ahead as we put together this budget and get ready 
for those changes.
    Now, I think the reality is, and we have this debate in 
this committee, is this being driven by budget or driven by 
strategy? I suspect that will come up a time or two during the 
course of the questioning, and of course, the truth of the 
matter is, as with any project that involves money, it is 
driven by both. You have your strategy, and you have your 
budget. I have not yet come across the group that has an 
infinite budget. You have to live within what the budget is and 
figure out how to make the strategy work. But I do believe the 
services did this the right way. They really started thinking 
about this 6 months to a year ago, putting together a 
comprehensive strategy in light of many of the facts that both 
the Chairman and I have talked about, and put together a 
strategy that makes as great deal of sense. And it fits the 
budget.
    Now, you would like to have more money. We would all like 
to have more money. But we don't. We ran a $1.3 trillion 
deficit last year, and that is about 38 percent of the budget, 
and that is an enormous challenge; not something that can be 
ignored. And it is also a threat to our national security.
    As you go back through history, you can see many examples 
of nations that ultimately lost wars because they didn't have 
the economic wherewithal to fight them. Yes, we would like to 
be absolutely 100 percent ready for everything that could 
possibly happen. Now, I don't think anybody in the history of 
the world has ever been 100 percent ready for anything that 
could possibly happen. But we also have to understand if we 
spend ourselves in such a massive deficit and economically weak 
condition, we then won't even be able to respond when the 
crisis has come, because the rest of the story, obviously, from 
Korea, is that we did respond. We grew the Army. We built more 
equipment, just like we have done in World War II; just like we 
have done in every war we have fought. We did not anticipate 
too many of them, if any of them. We have to be in a position 
to economically respond; to build the equipment and grow the 
force to meet that challenge.
    So we have to do both, and I recognize that you gentlemen 
are trying to balance those two legitimate needs; meet the 
strategy but also make sure that we have a budget that is going 
to work economically in this country so that we don't so weaken 
ourselves economically that we are not in a position to fight 
our wars and protect ourselves.
    That is a difficult challenge in this current environment. 
But as the Chairman said, and I will end on this note of 
agreement, we couldn't ask for two better people to help us 
meet that challenge. We look forward to your testimony and to 
your answers to our questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you. Mr. Secretary.

      STATEMENT OF HON. JOHN MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Thank you, Mr. Chairman, Chairman McKeon, 
Ranking Member Smith, distinguished members of the committee. 
First of all, I am humbled by your kind comments, and I will 
try to work as hard as I possibly can to measure up to even 
half of them. But I am deeply appreciative, and it is great to 
be back in this room--although those chairs are far more 
comfortable than these chairs are, I found, but nevertheless, 
this is always an honor for me, and I am honored to be here.
    I want to add my words to yours, Mr. Chairman, of 
appreciation and welcome to our 38th Chief of Staff of the 
Army. I hope I can keep this one longer than I kept the last 
one, but even in the relatively short time that General Odierno 
has been with us, he has shown that he is more than up to the 
task, and it is a pleasure to work with him each and every day. 
And I think, as you have said, both you, and Mr. Smith, that we 
are blessed to have such a great leader at such an important 
time.
    And while I am on the matter of thanks, I certainly would 
be remiss if I didn't thank each and every one of you. I may be 
somewhat biased, but after 17 years on this side of the 
Potomac, and now nearly 2\1/2\ on the other, I think I have a 
great appreciation, and I know I have a deep admiration for the 
incredible work that this committee does, for the vital role 
that it plays, and building our national defense, and of 
course, in the Army's case, making sure that we have the 
processes, the procedures, the rules, the laws, the money to do 
the right thing by these amazing men and women, some 1.1 
million strong.
    Today, as has been noted more than ever, our demanding 
fiscal environment requires us to have an even stronger 
partnership with this committee, with this Congress, and I 
promise you, we will do everything we can to see that that 
happens.
    We have a shared responsibility: One, to make sure that we 
have the right resources to defeat our enemies, to supply, and 
protect, and support our allies, and make sure that our 
homeland remains safe; and we need to do it responsibly, 
decisively, and yes, we need to do it affordably. And the 
budget that you have before you supports these goals by laying 
the foundation for a gradual reduction of our military and 
civilian end strength, while at the same time supporting the 
vital modernization training, soldier and family programs 
necessary so that the Army, though smaller, remains the 
strongest, and most capable, most lethal land force anywhere in 
the world.
    As we implement what I believe can be fairly described as a 
bold new security strategy, I want to be clear: The Army's 
combat expertise, adaptability, and strategic reach will be 
more vital than ever before. Over the last year, the Army has 
continued to be the decisive hand of American foreign policy 
and the helping hand of Americans facing the devastation of 
natural disasters. From Iraq and its deserts, to the Afghan 
mountains, to the Philippine jungles and Korean peninsula, our 
soldiers, Active, Guard, and Reserve, have continued to fight 
insurgents, defeat terrorists, stabilize governments, and 
support our allies.
    In December, after some 8 years of combat and stability 
efforts, the Army successfully concluded Operation New Dawn, 
leaving behind the fledgling democracy in a nation that once 
knew only tyranny. In an unprecedented logistical feed, our 
soldiers completed one of the largest retrograde operations in 
the history of warfare, removing over 3.4 million pieces of 
equipment.
    Moreover, we continue to support the efforts of the State 
Department as it works closely with the Iraqi government to 
further bolster freedom, prosperity and stability in that 
nation.
    In Afghanistan, the Army has made steady progress in 
fighting Al Qaeda terrorists, and Taliban insurgents, as well 
as training thousands of Afghan security forces. From 
conducting extensive regular and special operations, to 
providing essential logistics, transportation, medical, and 
communication support for the entire Joint Force, soldiers are 
at the forefront of the U.S. operations and success.
    But over the last year, your Army did even more. The 
soldiers deployed on six of seven continents and more than 150 
nations around the world. Beyond that, in 2011, we saw our 
citizens experience some of the worst natural disasters in our 
Nation's history; from responding to wildfires and floods, to 
hurricanes and tornadoes, our soldiers and civilians from all 
Components were there to help, protect, rescue, and rebuild.
    Simply put, our soldiers, civilians, and their families 
have once again proven why the United States Army is the most 
capable, versatile, and successful land force on earth. And it 
is this ability to adapt to a myriad of unpredictable threats, 
both at home and abroad, that we will maintain as we move 
forward in this new security and fiscal environment.
    This year's budget portrays an Army fully embracing change 
by making hard decisions now to lay the right foundation for 
the future. First, we are implementing a sweeping new defense 
strategy which emphasizes even greater engagement in the Asia-
Pacific region in the development of smaller, more agile land 
forces.
    Under this framework, which was developed collaboratively 
with the top military and civilian officials in our Department, 
the Army clearly remains a decisive arm of the U.S. combat 
power. Our balanced and transformed force will continue to be 
the most capable anywhere in the world. That is our standard. 
That is what the strategy requires, and that is what this 
budget supports.
    Second, we are implementing this new paradigm under the 
significant cuts directed by the Budget Control Act. In doing 
so, we made tough decisions, but we are guided always by the 
following principles: One, we will fully support the current 
fight by providing the operational commanders in Afghanistan 
and other theaters with the best trained and ready land forces 
in the world. This remains our top priority. Two, we will not 
sacrifice readiness for force structure. We must responsibly 
reduce our end strength in a manner that fully supports the new 
strategy but also provides the sufficient time to properly 
balance our training, equipment, infrastructure, and soldier 
and family support programs with our mission requirements.
    Next, we will be able to build force structure and 
capabilities to handle unforeseen changes to global security. 
The Army must be able to hedge risk through an efficient and 
effective force generation process and access to a strong 
operationalized Reserve Component.
    Next, we will maintain and enhance the Army's extensive 
commitments in the Pacific.
    Finally, we will not let the Budget Control Act cuts be 
taken on the backs of our soldiers or their families. Although 
we have and will continue to examine all of our programs, we 
will fully fund those support systems that work with special 
emphasis on wounded warrior, suicide prevention, behavioral 
health, and sexual assault programs. Based on these principles, 
our budget minimizes end-strength reductions in 2013 to support 
the current fight, emphasizing continued investments and vital 
modernization programs, such at the network, ground combat 
vehicle, and joint light tactical vehicle; delays or eliminates 
programs which no longer meet urgent needs in support of our 
new strategy or transforming force and defers certain military 
construction programs.
    The Army, at its core, is not programmed in systems; it is 
people. Each time before you, I come not just as a Secretary 
but humbly as the representative of our soldiers, civilians, 
and their families. As every one of us in this room knows so 
well, these brave men and women who have endured so much over 
the past decade depend upon a variety of programs, policies, 
and facilities to cope with the stress, injuries, and family 
separation caused by war.
    Sadly, tragically, our suicide and substance abuse rates 
remain unacceptably high, and we are aggressively pursuing 
multiple avenues to provide our personnel with the best medical 
and behavioral health support available. We must never forget 
that our success in both Iraq and Afghanistan has come with an 
incredibly high price to our Army family.
    Providing the means and resources for whatever challenges 
they now face, is in my opinion, the very least we can, we must 
do.
    As a final note, regarding our Army family, I would be 
remiss if I failed to mention the devastating impact that 
sequestration would have, not only on the Army's programs, 
systems, and readiness, but also on our soldiers, civilians, 
and their families. Sadly, they, too, would bear the cost of 
continued inaction leading to sequestration. To use an axe to 
cut a half a trillion dollars from defense spending would be 
perilous enough, but to do so without providing the Department 
with any means of managing those reductions, would be beyond 
risky. To say this would be unacceptable is, at least in my 
opinion, an understatement.
    In conclusion, on behalf of the men and women of our Army, 
let me thank you again for your thoughtful oversight, 
unwavering support, and proud partnership. Today, your Army has 
succeeded in Iraq, is making progress in Afghanistan, and as 
this budget, I feel, demonstrates, is poised to transform into 
a new, smaller, and more balanced force, ready to meet the 
needs, all the needs, of this Nation's national defense.
    I want to be clear, very clear. These are extraordinarily 
challenging times, globally, and fiscally. Our strategy in this 
budget reflect very hard decisions that will impact 
communities, industry, and people. We know that. We know it 
well. But I promise you, we will do everything we can to 
minimize these effects, but in the end, to make a properly 
balanced Army that can stay ahead of our competitors and 
support our greatest asset, our soldiers, we must restructure, 
we must reprioritize. We have begun this effort, and with your 
continued leadership and help, we will succeed.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Secretary McHugh and 
General Odierno can be found in the Appendix on page 50.]
    The Chairman. Thank you very much, Mr. Secretary.
    General Odierno.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF, U.S. 
                              ARMY

    General Odierno. Thank you, Mr. Chairman, and Ranking 
Member Smith, distinguished members of the committee. It is an 
honor to be here in front of you today and I want to first 
thank you for the incredible support you have continued to give 
our soldiers today and over the past 10 years specifically, as 
we fought in wars in Iraq and Afghanistan and around the world. 
We couldn't have done it without your support, your guidance, 
and your partnership that we have had.
    I appreciate the vote of confidence from Secretary McHugh, 
but in reality, it was I relying strongly on his wisdom and 
experience to guide me through my first posture hearings as the 
Chief. We are very fortunate to have Secretary McHugh leading 
our Army. He deeply cares about our institution and its role in 
providing our Nation's security, and I could not ask for a 
better boss.
    So together here today, both of us, it is a true honor to 
be here today, representing our 1.1 million soldiers and our 
nearly 280,000 Department of the Army civilians, and their 1.4 
million family members. I am extremely proud of the commitment, 
professionalism, and dedication of our soldiers and their 
sacrifice and accomplishments. Today they continue to be in 
over 150 countries around the world. Collectively, they are a 
truly globally engaged Army with 95,000 soldiers deployed and 
another 96,000 soldiers forward-stationed, conducting a broad 
range of missions.
    But our Army's primary purpose is steadfast and resolute to 
fight and win our Nation's wars. As the Army continues its 
transition, we will ensure the President's 2012 defense 
strategic priorities are implemented by first meeting our 
current commitments in Afghanistan and elsewhere by ensuring a 
highly trained, well-manned, and equipped force.
    Now that operations in Iraq are complete and we continue 
surge recovery in Afghanistan, we will help shape the regional 
environs in support of the combatant commanders as well as our 
strategic environment.
    In the Asia-Pacific, which is home to 7 out of the 10 
largest land armies in the world, we will have provided an 
array of tools through rotational forces, multilateral 
exercises, and other innovative engagements with our allies and 
new partners. We currently have some 66,000 soldiers, and 
almost 10,000 civilians in this region.
    In the Middle East, we continue our strong commitment to 
sustaining and building partner capacity to ensure stability.
    And in Europe, as we decrease our footprint by two brigade 
combat teams, we will use a series of engagement tools that 
will include rotational forces to conduct training and combined 
readiness exercises with our allies. This will serve as a model 
on how I see us doing things in the future, using a low-cost, 
small-footprint approach by utilizing rotational, regionally-
aligned forces and prepositioned stocks.
    As we move forward, we will ensure our National Guard and 
Army Reserves remain resourced at an appropriate level to build 
on the competencies and experiences that have been gained over 
the past several years. We are committed to maintaining an 
operational reserve to meet future security requirements. We 
will adapt our progressive readiness model to do that. We will 
build on the integration and synchronization gain over the past 
10 years between our conventional and Special Operations 
Forces. The Army's investment in our Special Operations 
community in counterterrorism, foreign internal defense, and 
other key operational matters is significant, going onwards to 
35,000 elite warriors that provide specialized and unique 
capabilities.
    As we look forward, and the Secretary already touched on 
this a bit, there are several focus areas that will help us 
guide the way ahead. Foremost, we will remain committed to our 
67,000 warfighters in Afghanistan and continue to provide 
trained and ready-equipped soldiers to win that fight.
    We will be responsible governmental stewards through energy 
cost-savings and institutional and acquisition reform. And we 
will continue our equipment reset program to restore unit 
equipment to desired level of capability that is commensurate 
with their future missions. There have been over 1.8 million 
pieces of equipment reset to date, which equates to 
approximately 31 brigade equivalents annually.
    And finally, we will become leaner. With a leaner Army, we 
have to prioritize, yet we must never sacrifice our capability 
of meeting a wide range of security requirements. This requires 
a delicate balance of end strength, modernization, and 
readiness, as we cannot afford to reduce too much too soon.
    With the end of Operation New Dawn and new defense 
priorities, we will reduce our end strength and force structure 
in the Active Army from 570,000 to 490,000; from 358,000 to 
353,500 in the Army National Guard; and from 206,000 to 205,000 
in the Army Reserve.
    It is imperative for us to sustain a gradual ramp that will 
allow us to take care of our soldiers, continue to provide 
forces for Afghanistan, and facilitate reversibility, if 
necessary, over the next 5 years. This helps mitigate strategic 
risks as we continue current operations and simultaneously 
reset for the future.
    We will also reduce our end strength by a minimum of eight 
brigade combat teams in the Active Component. This drawdown, 
based on our national strategic objectives, will be done with 
deliberate consideration to the impacts on combatant commander 
requirements, as well as considerations on local communities 
and infrastructure.
    We are in the process of reviewing our brigade combat team 
design as we analyze lessons learned from the past 10 years of 
combat and look to what future capabilities we will need to be 
successful.
    While we are a few months away from decision, initial 
analysis indicates we can eliminate some unnecessary overhead 
while sustaining more robust, flexible, adaptable brigade 
combat teams. This could result in additional BCT headquarters 
reductions while sustaining combat capability at the battalion 
level. Army unit readiness is measured by the level of its 
manning, training, and equipping. As a component of readiness, 
we will continue to provide first-rate support for all of our 
family's, wounded warriors, and our Veterans.
    Additionally, the Secretary and I pledge our support for 
the proposed reforms in military compensation programs. We are 
reinforcing the professional ethics centered around trust and 
respect in order to establish a climate where sexual 
harassment, sexual assault, and hazing will not be tolerated. 
This misconduct is inconsistent with the core values of our 
profession. Accountability will be enforced at all levels.
    Similarly, the Secretary and I are relooking at the role of 
women in combat as they comprise 15.6 percent of our Active 
Duty workforce. This will start with the opportunity for women 
to serve in their designated field, regardless the type of 
unit. It is about managing talent and putting our best people 
in critical and developmental positions.
    As we continue to transform our modernization practices 
through a holistic bottom-up approach, we must achieve our 
priorities of the network, which is critical to our ability to 
manage information and command our forces at all levels both 
home and abroad. The ground combat vehicle, the replacement for 
our infantry fighting vehicle that can accommodate an infantry 
squad and balance mobility and survivability and provide 
unmatched lethality on the battlefield against current and 
future threats. The more mobile, survivable network-integrated 
joint light tactical vehicle, which both myself and General 
Amos agree is necessary, given the last 10 years of fighting 
and what future operations may entail. And finally, we must 
have continued efforts to give our squad superiority on the 
battlefield with advanced soldier systems, in weapons, 
communications, and protections.
    The Secretary and I will continue to assess and make 
adjustments to our budget strategy while addressing any 
potential risk incurred as we adjust our force posture.
    I would like to leave you with one last thought. 
Sequestration is not in the best interest, in my opinion, of 
our National security. The impact to the Army would be severe 
reductions in the Active and Reserve Component end strength. It 
would significantly decrease our readiness, and detrimentally 
impact our modernization programs.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to speak here today. This committee affords 
our all-volunteer Army the most decisive land force in the 
world, and we could not do it without the support you give us.
    It is an honor to serve this great Nation and stand beside 
the dedicated professionals of our Army. The strength of our 
Nation is our Army. The strength of our Army is our soldiers. 
And the strength of our soldiers are our families. And this is 
what makes us Army strong.
    Thank you very much, and I look forward to your questions, 
Mr. Chairman.
    [The joint prepared statement of General Odierno and 
Secretary McHugh can be found in the Appendix on page 50.]
    The Chairman. Thank you very much, General, and Mr. 
Secretary.
    Last year we passed the Deficit Reduction Act that took a 
two-pronged approach to attack the huge deficit problem that we 
have built over decades of making promises that would be 
difficult to keep and spending money that we had to borrow to 
spend.
    The first prong was the almost trillion dollars that was 
supposed to come out of discretionary spending. There was a 
call after the last election that everything should be on the 
table, and I understand that defense was a big target, and I 
have repeatedly said, if we could not find some savings within 
a budget of $600 billion plus, shame on us.
    And I think you have done a great job on that, beginning 
with the $100 billion of efficiencies, and then the $78 
billion, and then the what we find now is $487 billion. The 
second part of that, we had, through the legislation, assigned 
the supercommittee to come up with savings, hopefully out of 
the entitlement programs. Because if we don't address the 
entitlement programs, if we eliminate the total discretionary 
budget, we still run a deficit of about a half trillion dollars 
a year. So we could totally wipe out the discretionary budget 
and not solve the problem, not even really attack the real 
problem.
    But we are facing that now. You have done a great job 
working for months on coming up with the strategies, and using 
the money that you have remaining after these cuts to get us 
through this problem.
    The second part of the second prong of that attack when the 
``super committee'' [Joint Select Committee on Deficit 
Reduction] was unable to perform its work, is known as 
sequestration, and that will be another $1.1 to $1.2 trillion 
that takes effect next January 1st. Again, half of that comes 
out of defense. Now, defense only accounts for 20 percent of 
our budget, but the first tranche, 50 percent of the savings 
came out of defense; the second tranche, another 50 percent of 
the savings is slated to come out of defense.
    So that we could look out 10 years and be talking about 
$100 billion a year cut on defense out of what had been 
projected in previous budgets.
    To me, the most pressing need right now is, we need to fix 
the sequestration. If we allow that to move forward and hit us 
next January 1st, the way it is currently drafted, just across-
the-board cuts of either 8 percent, 12 percent, depending on if 
personnel are taken out of the equation, thinking of all of the 
multiple contracts. I don't know how many contracts you have 
out, Mr. Secretary, but I am sure it is in the hundreds, if not 
thousands, that would have to be rewritten, renegotiated. I 
just see total chaos on January 1st of next year if this has 
not been fixed.
    I would like to ask you, General, what you are doing, what 
you are contemplating doing, what planning you may be doing to 
prepare for the problem that may confront us if we do not 
address this issue before next January 1st. What will you be 
doing?
    General Odierno. Mr. Chairman, first, we will continue to 
wait for guidance from the Secretary of Defense in order to 
move forward on very specific planning for sequestration. But 
as I think through this, and as we think through the potential 
that this could have, what I would tell you is that it would 
result in us having to relook fundamentally how we do business. 
The reductions that would be required in both our Active 
Component and Reserve Components would be significant. Our 
readiness profiles would be affected, and so how would we be 
able to sustain readiness so we could avoid Task Force Smiths 
would be critical as we move forward. And then, finally, it 
would significantly delay any modernization efforts we have 
that could fundamentally really keep us from providing what we 
believe is necessary to properly modernize the force.
    Secretary McHugh. Mr. Chairman, may I just add a few words.
    The Chief is absolutely right. We are not doing as yet any 
hard planning. That would probably happen later in the summer, 
would it go to that extent. But just some back-of-the-envelope 
math can tell you if the Army receives and apportions share 
amongst the services of that cut, it would be about 26 percent. 
I think that is probably best-case scenario for us. That is 
$134 billion through 2017. To take that kind of additional cut 
through the FYDP [Future Years Defense Plan], as the Chief 
said, would leave virtually no activity the Army undertakes 
untouched. You mentioned contracts. The Army has open contracts 
totaling since 2000, 96,000 in number at the moment. Not all of 
those would be affected but a great number of them would. In 
some cases, if we interrupt the program, we have to pay 
closeout costs on those contracts. I worry about, as I know you 
do, Mr. Chairman, what do the manufacturing interests, what do 
our industrial-based interest do the further we get into the 
year? They have employees. They have to plan. Some have 
shareholders. The uncertainty, I think, is something that, the 
sooner it can be cleared up, the better it will serve all.
    The Chairman. Thank you. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, I share your concerns 
and these gentlemen's concerns about sequestration. I think it 
is imperative that we avoid it for many of the reasons that 
have been stated.
    And I think the big problem with our budget approach is 
there are three basic pieces of trying to deal with the deficit 
here. There is the mandatory spending. There is the 
discretionary spending, and then there is the revenue, all of 
the money that comes in. You know, I mean, in all of those 
areas, we have seen spending go up significantly in both 
mandatory and discretionary, and we have seen revenue go down 
significantly in the last 10 years by over 30 percent, you 
know, in large part because of the sheer number of tax cuts 
that we have passed over the course of the last 10 years and 
then the ups and downs in the economy.
    All three of those pieces have to be on the table if we are 
going to seriously deal with this, and unfortunately, as the 
chairman points out, the Budget Control Act only dealt with 
one, and then sort of on a wing and a prayer said, well, we 
hope the super committee will figure out the other two, which 
didn't happen.
    And I think the overall problem here is the depth of denial 
in this country, not just in this town, about where the deficit 
is at, and what is going to be required to respond to it is 
unprecedented. What we do is, you know, every person or elected 
official has their area of the budget that they care about, and 
they will fight to the death to defend it and then say, yeah, 
the deficit is a problem, but deal with it someplace else.
    You know, that is why we need a comprehensive approach that 
looks at revenue, mandatory spending, and discretionary. And 
yet, you know, it is really not happening. All we are really 
hearing is, you know, defend our portion of the budget. You 
know, we hear it on this committee. Defense is our thing. We 
defend it. You don't hear people saying here is what we ought 
to cut for mandatory spending, or well, other than me and a few 
others, here is what ought to raise in taxes--I am willing to 
raise those taxes to make sure that we don't have to do the 
cuts necessary. And that is the key to this.
    You know, if we want to protect defense from sequestration 
or even from the size of the cuts that it is facing, then we 
have to put specific proposals on the table to either raise 
revenue or make cuts in mandatory spending, and until we do 
that, we are going to be vulnerable.
    You know, and we have got a bill coming up here in about a 
half-hour that is going to add another hundred some odd billion 
dollars to the problem. So, you know, we are going in the wrong 
direction, and I share the Chairman's concerns about the impact 
that will have on defense. It is our responsibility, and not 
just to complain about the cuts that are happening to defense 
but to look at those other two pieces of the equation, the 
revenue, and the mandatory spending, to make sure that 
discretionary spending is protected. That is our 
responsibility, not yours. And it is one that thus far, we are 
failing to meet. And if we really want to protect defense, we 
better change that.
    I want to ask quickly about some of the sexual assault 
language that has been in previous legislation and your efforts 
within the Army to step up and deal with what is a fairly 
sizeable problem and concerns about how sexual assault charges 
are handled. We have passed legislation, under the leadership 
of Ms. Davis, Ms. Sanchez, and Ms. Tsongas and others on this 
committee to, you know, try to better address that issue.
    There are some proposals that go further. I think the 
biggest proposal is the idea of taking sexual assault outside 
the normal chain of command, and in terms of charging, I know 
there are deep concerns within the military about that, so if 
you could do two things: One, tell us about the progress that 
is being made with some of the changes we have done, and then 
explain, you know, your concerns about going outside the chain 
of command for sexual assault cases. But the big thing is, to 
avoid that second one, we have to have some confidence that the 
first one is making a real difference.
    Secretary McHugh. And we deeply appreciate the leadership 
that many of the members on this committee have brought to the 
issue. And I just want to assure you, having worked on this 
matter as Personnel Subcommittee chairman and ranking member in 
my time here, there are few things that are more in contrast to 
the basic Army values and few things that happen within our 
ranks that we are more concerned about and that we are not 
trying every day to become better.
    As to our responses, as you know, Mr. Smith, we have a 
taken a holistic approach to this from both the counseling, 
pre-counseling, encouraging victims to come forward to report, 
trying to provide them the assurances necessary, both within 
their command and within the larger Army, that they won't be 
victimized again; that coming forward, and talking about these 
things will not be a career-killer for them. But beyond that, 
what we are also trying to do, is bring sensitivity to our 
youngest soldiers and bringing responsibility to our NCO 
[Noncommissioned Officer] core and to our leaders.
    We have instituted constant training programs from the 
basic level training courses through the drill sergeants course 
through the basic officer leader course. We have instituted 
training programs into the JAG [Judge Advocate General] 
schools, so that our Army attorneys understand the special way 
in which these matters need to be handled, both socially as 
well as legally. We have tried to, in fact have, greatly 
increased the resourcing that is necessary to provide lab 
examiners. We have hired more of those to provide special 
investigators. We have hired six highly qualified experts in 
sexual assault and harassment to come into our ranks to guide 
us in terms of program development, but also to help our 
prosecutors and to help our investigators, make sure that they 
are up to the latest developments that come about.
    We have mobile training teams that go out and go to every 
unit in the Army, conducting specialized training for our on-
post camp and station investigators, as well. I think if you 
look at the data, they are still too high and they are 
unacceptable, but we do have some glimmer of progress. Our 
report rate is 33 percent. I view that as abysmal. But in the 
civilian sector, the report rate is 18 percent. We refer some 
60 percent of all cases of actual rape and assault brought to 
our officials for court marshal. And our conviction rates have 
gone as high as 78 percent, and not every one of those data 
points have a similar data point within the civilian sector, 
but we are doing better in some cases, better than the civilian 
sector.
    But better is not good enough. We have to get this to a 
point where one instance is one too many, and that is our 
objective.
    Mr. Smith. Thank you very much. I appreciate that, and it 
is worth noting that this is not just a problem in the 
military, and I hope we do understand that.
    General.
    General Odierno. I would just like to add that as I 
mentioned in my opening statement, there is institutional and 
operational capabilities that we have to establish and the 
Secretary covered most of those. The one thing I really want to 
focus on is the cultural and institutional issues we have here. 
We get soldiers from all different parts of society, all 
different parts of the country. It is important for us as we 
initially bring them in to ensure that we foster a climate of 
trust and respect that we expect within our own institution. 
And that will start early on.
    We now have courses, when you are going through basic 
training, when you go to your first officer courses, whether 
you are in officer development training, and it is going to be 
inculcated in everything that we do, because that is how 
important it is.
    Our female population plays an incredible role in our Army. 
And we have to ensure that they have the environment that they 
can operate in properly, and so we take this very seriously.
    If I can just make a short comment about the Uniform Code 
of Military Justice. I think it is important that we work 
carefully about this. The Uniform Code of Military Justice 
provides us with incredible flexibility to operate across a 
wide range of sexual assault, sexual harassment initiatives 
that we do not want to lose.
    And so it is important that we continue to have discussions 
about this. And I am adamant that with hard work, we will 
ensure that the chain of command is able to use the 
administrative and UCMJ [Uniform Code of Military Justice] 
authorities they have to help us to enforce this program.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you, our chairman mentioned Task Force 
Smith. Regarding the lessons learned from Task Force Smith, one 
of the reasons why the Army couldn't get enough soldiers and 
equipment into the initial action was because there was a 
limited number of transport aircraft.
    I understand that the Air Force has decided to not procure 
any more C-27 J aircraft and will be retiring some C-130s. I 
realize that you have recently signed a Memorandum of 
Understanding with the Air Force, but when it comes to 
providing support after the last tactical mile, are you 
convinced that the Air Force will be able to meet all of your 
needs, and if they don't, will the Army have to increase its 
use rates for other assets, such as the CH-47 helicopter? I 
think everybody knows that the Air Force was never very 
enthusiastic about the C-27 J. They didn't even want the plane. 
And the logic that I had some trouble understanding, the 
Pentagon assigned the plane to the Air Force, and then asked 
them to be at the beck and call of the Army when the Army 
needed that support. I didn't think this was a prescription for 
a really effective military.
    And I understand now that because of limitations in 
airstrips in Afghanistan, that we don't have enough C-27 Js, 
and one source said you are flying the blades off the 47 to 
meet the demand there. How sure are you that if we are involved 
in conflicts like Afghanistan in the future, that you are going 
to be able, the Air Force is going to be able to meet your 
needs?
    General Odierno. Thank you, sir.
    First, in terms of our--and you are touching on our 
intratheater lift in terms of strategic lift. We are confident 
in C-5 Mikes, and the C-17s that will be able to help us to 
move our forces strategically around the globe in order to meet 
our requirements.
    In terms of intratheater, which is the subject you focused 
on is, it is important that we have the capability to move in 
intratheater. When I was the commander in Iraq, we had 
conducted the test for the C-130 that was then attached to the 
Army in order to meet its missions, and we found it to be an 
incredibly successful program, where we controlled where it 
went, we controlled the loads and it enabled us to get what we 
needed in intratheater lift where we needed it on time.
    And that is the basis of the Memorandum of Understanding 
that has been now signed between us and the Air Force, based on 
the tests that we conducted in Iraq.
    Afghanistan, as you have said, has very difficult terrain. 
So it is a very specific case, and yes, we have had to fly 
significant amount of CH-47 hours in Afghanistan in order to 
provide support to our disparate bases, but we have also done 
other things like air drop. We have significantly invested in 
our ability to more accurately air drop supplies and other 
things to remote locations, which has helped us solve some of 
these issues. The C-27 has performed very well in Afghanistan. 
I visited them personally. They are in high operational 
readiness rate. They have provided a capability that has been 
helpful in Afghanistan. I would just say that I think with 
choices that have to be made, one of the choices the Air Force 
made, was to reduce that capability. So what we are now trying 
to do is we will continue to increase the use of the C-130 to 
support our intratheater lift, as well as, as I pointed out, 
more precise air drop capabilities and we will continue to work 
on that as we move forward.
    Mr. Bartlett. Another area of considerable concern to me is 
lightening the load on the soldier.
    General, in your opinion, do we need to shift the balance 
in the operational requirements process from a higher priority 
on aircraft and vehicles to more emphasis on soldier focus. As 
an example, how can we help you to speed up the rapid 
innovation process for weight reduction initiatives for 
individual soldier systems. In a 120-degree temperature, they 
are caring 150 pounds. Now, that is just unacceptable, isn't 
it?
    General Odierno. We have actually made, in my opinion, 
great progress in this area. Now, what we now look at is as a 
squad; it is about what the squad can carry together in a load. 
Now what has happened is we have made some significant 
improvements in reducing the weight of what they were carrying, 
but now what we are doing is, we are finding that we are 
carrying more things. It gives them the capability to have more 
and provide more capability in the squad as it moves forward. 
So we have to now work through and understand what specifically 
we think a squad needs for it to be successful. Because as we 
have lightened the load, we have added more things to the 
squad. And so what we have to do is invest in deciding what are 
the absolute, optimal loads that we have, and continue to look 
at the technologies to reduce body armor. We have made some 
good progress there, but we still want to continue to looking 
at decreasing the weight of our body armor, while increasing 
the amount of protection.
    Mr. Bartlett. Thank you very much.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this morning. I know we 
have talked about the impact that these cutbacks can 
potentially have on the industrial base. I am particularly 
concerned about the ground combat vehicle. This is a basic 
staple of the ability of the Army to fight. The current plan, 
according to the budget submitted, calls for a total shutdown 
of the Abrams, Bradley, and Stryker production lines for 3 to 4 
years, which starts in fiscal year 2014.
    I just want to get it on the record, how can the Army be 
sure that the production lines and, in particular, the skilled 
workers, because in a recent visit to my colleague, Mr. Critz's 
district, that both Chairman Bartlett and I went to, that is a 
very real concern on behalf of industry that the skilled 
workers are not going to be there after such a--such a lengthy 
shutdown. So after going cold for 3 to 4 years, how can we be 
sure that that capacity will be able to regenerate itself?
    Secretary McHugh. Well, it is a great question. It is one 
we are very concerned about, and very focused on, as well. What 
we have attempted to do at this point, is really a two-pronged 
approach. First of all, the Department of Defense is leading 
what is called the S2-T2, sector-by-sector, tier-by-tier 
analysis of all of our industrial partners to try to assess 
those greatest vulnerabilities, the kinds of things that you 
mentioned, Mr. Reyes, and to figure a path forward for all of 
the services jointly as to how we might lessen that challenge 
and burden on the individual locations.
    Beyond that, the Army itself is doing an industrial 
baseline. Our folks in our acquisition community are looking at 
those things. By way of example, you mentioned the Abrams 
shutdown in Ohio. What we are doing with GDLS, General Dynamics 
Land Systems, the contractor on site, is trying to ensure that, 
through particularly their FMS [Future Military Sales] sales, 
their foreign military sales, which they are beginning to line 
up and which the Department of Defense is attempting to assist 
them, provides that core ability for those particularly highly 
skilled engineer positions to retain employment until we begin 
our recapitalization program in 2017 of the M1A2 sub-V Abrams. 
So this is something that is of great interest. It is 
something, as I said, we are looking at very hard. And there 
are no guarantees. But whether it is a PPPs, public-private 
partnerships, or other kinds of approaches, as far as we are 
concerned, we are willing to pursue any reasonable path to 
ensure that those particularly critical jobs remain viable.
    Mr. Reyes. Is there--and I am sure you have given it 
thought, but is there any way to keep some kind of a minimum 
production capacity for the Army during these partnerships?
    Secretary McHugh. Well, every facility has a minimum 
sustain rate. For the Abrams, I believe it is 70 tanks a year, 
which is far beyond our--not just our fiscal ability; it is far 
beyond our need. But as those minimum sustain rates are figured 
through, we try to, as I say, meet them through other means, 
public-private partnerships, FMS, and any other way by which we 
can assist. So those are part of the calculation.
    Mr. Reyes. General.
    General Odierno. I would just add that we are being 
aggressive with our foreign military sales program in 
identifying potential suitors who need this type of equipment. 
And so we think there is some potential there, and that is 
something we will continue to work very hard, just to add to 
what the Secretary said. But for example, Lima, it would cost 
us $2.8 billion just to keep that open. And we--and our tank 
fleet is in good shape. And we don't need to--because the great 
support we have gotten over the last few years, and we are not 
going to need to start recap or resend of that until 2017. So 
we have to fill that gap between the end of 2014 and 2017, and 
we will try to use FMS where we can to do this.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary, General, it is an honor to have both of you 
here today.
    We appreciate your service, and as you know, we are often 
here a very bipartisan committee, and I agree very much with 
the distinguished ranking member when he indicates that we 
simply, as a Congress, can't spend $800 billion on a stimulus 
package, almost twice the cuts that we are now placing in 
defense, or pass a massive health care act without having 
consequences. Two of those consequences are that we either have 
to ask hard-working taxpayers in America to spend more of their 
money to help cover our spending problem or we have to cut the 
defense of the Nation that they love. And neither of those 
consequences are good.
    If we could consider all of that in here, then the sign 
outside would say House of Representatives, but it doesn't. It 
says House Committee on Armed Services. So I am going to focus 
on our military concerns.
    And General, specifically for you, you have been working, I 
know, to articulate the role the Army can play in our Asia-
Pacific defense plans. And when it comes to maintaining 
operational access in a theater where the threat of ballistic 
missiles is growing, it would seem to me the Army could play a 
larger role in providing theater missile defense to our 
forward-deployed personnel and facilities and provide a means 
of alleviating some of the missile defense burden on the Navy.
    However, in the fiscal year 2013 budget there are cuts to 
the THAAD [Terminal High Altitude Area Defense] program and the 
Patriot programs, and I am concerned about the Army end-
strength reductions and how they could effect this mission. 
Could you just tell us and discuss maybe a little bit the role 
the Army foresees for itself in providing theater missile 
defense in the Asia-Pacific region? And then the Secretary 
might add something to that, if he would.
    General Odierno. Thank you, Congressman.
    First, we do play a significant role in the Pacific region 
air missile defense command. We have--our major command is in 
Hawaii, who manages air and missile defense for the region. We 
have Patriot battalions forward-deployed in the Asia-Pacific 
region. And we have tactical operation strategic radars that 
are being deployed into the region to continue to supplement 
the current air and missile defense capabilities that we have. 
We are very focused on forward air and missile defense 
capability in our key theaters, both Asia-Pacific and other 
areas, to include the Middle East, and we will continue to do 
and fund that. And we have the capability to do that. We have 
the force structure to do that. So I feel confident that we 
will continue to be involved with that.
    I would also say there is many other roles that the Army 
can play in anti-access capabilities as we look at ground 
opportunities for entry and other things. And our ability, 
because of the large influence that the armies have in the 
Pacific region, we can help to develop systems and 
capabilities, multilateral systems and capabilities, that would 
help us in our anti-access campaign. And so I think in the 
Joint Operational Access Capability Assessment that the Joint 
Staff is doing, the Army will play a significant role in this 
as we move forward to build on the capabilities of the Navy and 
Air Force. And I think it is that joint concept and joint 
operational concept that will help us to have and work on the 
anti-access capabilities.
    Mr. Forbes. Mr. Secretary.
    Secretary McHugh. Yes. Thank you, Mr. Forbes.
    I think the Chief laid down very well our current posture 
there. I would just say from a budgetary perspective, while 
your observation is absolutely right, there are cuts in the 
funding line to the entire program, and all of the accounts in 
the Asia-Pacific region for Army were protected. We haven't 
diminished any of those.
    I get a little red behind the ears when I hear so many 
people--you did not--but I hear so many people refer to the 
Asia-Pacific region as strictly Naval and Air. There is a lot 
of air there and there is a lot of water there, but there is a 
heck of a lot of people there as well.
    And the fact of the matter is the Army has long been a 
dominant posture in the Pacific, over 76,000 troops. We had 
120-plus activities and other kinds of operations with our 
Pacific-Asia partners. We are looking to grow those. The Chief 
just got back from visits to Japan and Korea. And as we develop 
jointly into our new strategy, again, as the Chief suggested, 
the Army has expertise in those missile defense platforms, and 
if we can fulfill an expanded role in that mission, that would 
be something we would want to pursue very anxiously.
    Mr. Forbes. We want to thank you both for your service, but 
also for the great men and women that you constantly turn out 
that serve our country.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, and General, for being here, 
and for your service.
    I wanted to go back to the sexual assault question for a 
second, because I don't know if you had as much time, General, 
to respond to the chain of command issue.
    And perhaps, Mr. McHugh, you would like to weigh in as 
well.
    As you know, there are a lot of victims and people who are 
concerned that the chain of command has not allowed victims to 
have the kind of access to help that perhaps they have needed, 
particularly in the past, but even today. Could you comment on 
that a little bit more and why you feel that it does serve 
best?
    I would say for myself I think this is a leadership issue. 
And so I think it is very important that leadership take 
responsibility and accountability. But on the other hand, we 
know that there are quite a number of instances when that has 
not worked.
    General Odierno. Thank you. And I don't disagree with your 
statement. It absolutely is a leadership issue. It is a 
commander's issue, as we would call it. And it is something 
that we have to continue to work. And again, it is even with 
our--you know, it is about continued education. It is about 
making sure that we have a message that goes through the chain 
of command that this is something that is incredibly important 
to the welfare of the Army, the welfare of our profession. And 
we will continue to do that.
    What I have found over my years of experience with these 
types of issues is, first off, you have to have a couple 
things. You have to have the ability for the victims to--some 
victims do not--it is about the victims feeling comfortable how 
they report and who they report to. So you have got to have a 
variety of ways for them to report. That is why it is important 
that we continue to have them, if they want to, not use the 
chain of command to report, and report outside of the chain of 
command. And we are establishing--we have established and will 
continue to emphasize that if that is what they feel 
comfortable doing.
    But it is also important for us to ensure to the chain of 
command that this is an important issue for morale. It is an 
important issue for our ability to execute our mission on a 
day-to-day basis. And it is also important for them to 
understand and help train them on what is available in the 
Uniform Code of Military Justice and other means in order to 
hold people accountable, and that in fact, as we do in 
everything we do, we will hold our commanders accountable for 
the discipline and morale of their units. And it is important 
that they will understand this as we go forward.
    So what we have done is we are increasing emphasis within 
our Judge Advocate General Corps to help train our commanders 
to ensure they understand what they can and what they can't do. 
And also it is important for us, working through the chain of 
command, to emphasize the importance of this. We now, we talk 
to every battalion and brigade commander at Fort Leavenworth. 
They come through there every month for a pre-command course. 
We have added a portion specifically dedicated to this subject 
so they understand the importance of this. And in fact, the 
Vice Chief of Staff of the Army with a group is headed out 
there next week to talk about a variety of subjects, this being 
one of the main subjects, that we talk about. So I think it is 
things like that that will help us to emphasize in the chain of 
command their responsibilities.
    The other thing is to make sure that we have enough 
oversight where we disconnect a bit, be able to look at it from 
a little higher level from the chain of command. In other 
words, people who are not so close to the incident. And we have 
ways to do that. And we are working as well as--using that as a 
technique as well. So, again, we are focused on this, ma'am.
    Secretary McHugh. I want to thank this committee and this 
Congress, because I think you passed some very important 
legislation in the last session that sets some requirements as 
to Sexual Assaults Response Coordinators, SARCs, and victims' 
advocates. And the Army had already started on that, but you 
raised the bar as to a requirement that the SARCs be at the 
brigade level, the victims' advocates, we have two VAs at every 
battalion level and company level. And that provides the kind 
of alternative that the Chief had just spoken about if the 
victim feels uncomfortable going to their chain of command.
    But that really, as you noted, Mrs. Davis, that is the 
critical part of fixing this more fully, making those 
commanders sensitive, making them understand that if they don't 
get it right they are not going to be in this Army much longer.
    As to the UCMJ, it provides the prosecutors the opportunity 
to take action against people who are perhaps not violent 
sexual offenders, but inappropriate touching, the kinds of 
actions that probably in the civilian sector, nothing is done. 
And we take action against them as well, whether it is an 
article 15, or a holding off of promotion, or pay cuts.
    Mrs. Davis. Thank you. Thank you, Mr. Secretary.
    My time is about up. I did want to make one comment, if the 
chairman would let me. I think one of the things I have heard 
is that if women are serving up and down the commands and 
across the spectrum of the services, then in many ways, we will 
have less of this. So I just wanted to share my somewhat 
disappointment I think with the latest report that came out on 
women in combat and hope that we can work together to make sure 
that there is a process in place to be able to really determine 
the physical standards that are needed and how we are going to 
get to that, particularly for women who want to serve in those 
commands.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you both for being here.
    As an Army veteran, I am particularly happy to see the 
venue today. Additionally, I am very grateful to represent Fort 
Jackson. I soon will be having a geographic presence adjacent 
to Fort Gordon. It is really exciting. And then I have got 
three sons serving in the Army National Guard. So I appreciate 
your service.
    And Mr. Secretary, I am very grateful to be seated in the 
John McHugh seat, chair. So it is a great honor to follow you 
in supporting military personnel. So thank you so much for your 
service.
    And General Odierno, one of the highlights of my 
congressional service, we knew of your success in Iraq. But 
when we came to be briefed and you came up with a diagram what 
appeared to be the State of Virginia, and you explained that 
this indicates a high level of violence where Northern Virginia 
would be the height, but then the surge, and then it led to the 
Eastern Shore. And so it was a diagram that could be understood 
by anyone. And so your success is just greatly appreciated by 
me.
    With that, though, I am really concerned about the 
Administration's budget, and in particular, Mr. Secretary, the 
extraordinary fee increases in regard to TRICARE [DOD health 
care program]. We have commitments to our service members, our 
veterans. And the service that our young people make is just 
extraordinary, and their families. And sadly, the 
administration is proposing a TRICARE fee increase of fiscal 
year 2013, 30 to 78 percent; and then over the next 5 years, 
from 94 percent to 345 percent. To me, this is a great concern 
for the people I represent. And in fact, I am very concerned, 
and I would like to know how you feel this will affect 
recruiting, retention. And then what message does this send to 
our young people who are in the field today?
    Secretary McHugh. I think you have to remember as to 
recruiting and retention, none of these increases would affect 
those who are currently serving. So the increases would only be 
effected on those retirees under the age of 65 who are out of 
the military, obviously, and working by and large.
    This was not an easy decision. But it is something that 
this committee has talked about for a good number of years. And 
it is simply the fact that the health care system within the 
military services, just as it is within the civilian sector, 
from a price perspective, is out of control. While the 
percentage of these increases over time in some of the 
categories sound to be quite large, the fact of the matter is, 
A, these are the first increases since the program was put into 
place in the mid-1990s; and B, from a comparative perspective 
in relation to the civilian community, the TRICARE program will 
still be very, very beneficial, and in most cases, a far more 
generous program than you can find in the private sector.
    So the interest here, and it is shared amongst the NCOs, 
senior NCOs, amongst all the service chiefs, and all the 
service secretaries, is that we have to do something now to 
ensure that this program remains viable for those great men and 
women in uniform and their families who have served. And the 
reality is the longer we wait, as in so many of the other 
problems that this Congress is attempting to deal with, the 
answer gets harder and harder, and the increases will get 
larger and larger. So we think the time to act is now. 
Maintaining a highly generous program. And certainly those 
great men and women in uniform have earned it.
    Mr. Wilson. And TRICARE is so appreciated.
    A concern I have is hollowing out of the military. First of 
all, I want to thank you both for your courage in regard to 
speaking out in regard to sequestration. There are different 
definitions of hollowing out. My concern is for senior NCOs and 
junior officers who have combat experience. This is invaluable. 
How are we going to address this? Is there a preference? Is 
there protection? What will we be doing to maintain people with 
combat experience?
    General Odierno. Well, first off, that is why for me, as we 
come down in size, it is about the length of the ramp over 5 
years. That is what is so key to that. Because if we can do it 
over a 5-year period, as we have asked for, that enables us to 
keep the best, to ensure we keep the combat-tested, the combat-
experienced officers and noncommissioned officers we have. If 
we are asked to do it more quickly than that, then we will lose 
many of our combat-tested and noncommissioned leaders, both 
officer and noncommissioned officer. So that is why this 5-year 
period is so important for us as we look at drawing down the 
Army.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    And thanks to both of you for your service. As I have 
discussed with both of you many times in the past, in various 
venues, as you will recall, I strongly believe that a key to 
the reversibility that is built into defense strategy, and a 
key to ensuring that our country is able to rapidly equip our 
soldiers in the event of future contingencies, is our organic 
industrial base.
    I am very pleased that Congressman Schilling and I were 
able to expand the ability of our arsenals to enter into 
public-private partnerships through last year's NDAA [National 
Defense Authorization Act]. And I believe that those 
partnerships, as does Congressman Schilling, will be key to 
maintaining the readiness for our arsenals.
    However, I also believe the Army must do its part. And I do 
believe that the Army must actively support the readiness of 
our organic industrial base. Specifically, my question then 
regarding this particular issue is what is the Army's plan to 
workload the organic industrial base, including our organic 
manufacturing base through the arsenals to ensure really that 
its capabilities are maintained in order to respond in case we 
do have another OCO [Overseas Contingency Operations] at some 
point down the road? And if there is a plan, how will it be 
implemented to ensure that these critical capabilities are 
maintained?
    Secretary McHugh. Thank you for your concerns, and on a 
very important area. Generally, when people talk about so-
called reversibility, I think they perhaps naturally think 
about reversing our end strength numbers. That is something we 
spent a lot of time on. And I think one of the more important 
components of the way in which the Army has shaped itself 
through this budget is we retain those NCOs, senior NCO 
positions, and particularly field grade officers who would be 
so critical to expanding our numbers. But there is another 
component to that reversibility as well, as you noted, sir, and 
that is our ability to produce the products, the weapons, the 
platforms that are necessary when we send our warfighters out 
to do the hard work of freedom.
    I mentioned earlier one of the critical components of how 
we are going forward right now are the various analyses that 
both the Department of Defense and the Army are conducting 
sector-by-sector, tier-by-tier analysis through DOD [Department 
of Defense] and an Army baseline industrial capability analysis 
trying to both identify where our major risk lies, where the 
single point of failures exist, and also to try establish a 
strategy where we can do as much as we possibly can, whether it 
is through PPPs, as Rock Island I think has done very, very 
effectively, or through increased FMS to keep those work lines 
busy and open.
    This is going to be a very difficult challenge. These are 
in large measure highly skilled workers. And that is certainly 
true at Rock Island. I have had the pleasure of visiting there. 
We have a similar hard metal facility in Watervliet and Albany. 
And those two do some pretty important things. So this is an 
ongoing effort, and we recognize it. And frankly, if all of our 
locations were as aggressive and forward-leaning as Rock Island 
has been to go out and to develop partnerships, we would be a 
little less challenged. So I appreciate yours and Senator 
Durbin's and the entire delegation's vigilance on that matter.
    Mr. Loebsack. Thank you.
    General.
    General Odierno. If I could, Congressman, as you stated, 
the organic industrial base is key to our ability to continue 
to be capable not only of reversibility, but to sustain the 
force as we move forward. It has been for the last several 
years. What we have done is we have developed core functions at 
many of these areas, which will enable us to sustain what we 
need, enabling these core functions. We will have to continue 
to assess, as we look at our budgets in the future, to see do 
we have to redesignate some core functions or combine some? But 
I am confident that we have a good program in place to take 
advantage of these core functions that we have established at 
many of these arsenals, depots, et cetera.
    As you know, there will be some reduced--for the next few 
years, I think we will sustain a fairly high rate, but as we 
move forward and we continue to finish the reset coming out of 
Iraq and Afghanistan, we will have to start to reduce some of 
the capacity. But we will try to keep the expertise necessary 
to sustain these core functions that we will need over the long 
haul.
    Mr. Loebsack. And I think from a national security 
standpoint, I think we can all agree, too, that should we have 
another overseas contingency operation at some point, we don't 
want to be in a situation where it takes some time to ramp up 
the production of whatever it is that the arsenals are actually 
producing at that time. As was already mentioned, make sure 
that we do provide for our troops when they go overseas on 
whatever mission it may be that they are trying to perform.
    And I do have one question for the record I would like to 
submit having to do with our Reserve Components as well, if I 
may do that as well. Thank you, Mr. Chairman, and I yield back 
the balance of my time.
    The Chairman. Thank you. The vote has been called. I plan 
on trying to get in two more questioners before, and then we 
will recess and come back as soon as we can.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you very much for being here 
and for your service.
    Mr. Secretary, I have a two-part question for you. I see 
that in this year's budget, you submitted a request for 
approval to enter into a second multiyear contract for the CH-
47 Chinook helicopter. Since you have been using the multiyear 
for Chinooks for the past 5 years, and I understand that one 
will expire this year, what have you seen as the biggest 
benefit for you and the taxpayer of having the authority that 
has led you to request a second multiyear contract?
    And the second part of it, Mr. Secretary, is, is the Armed 
Aerial Scout program an Army priority?
    Secretary McHugh. As to the CH-47, we have found that 
multiyear contract to be very efficient. We are very, very 
pleased with the product and the product line. And as we have 
looked hard at our acquisition strategies, both successes and 
failures over the last several years, the CH-47 contract as it 
is currently configured seems to have embodied a lot of the 
answers and a lot of the solutions to some of our challenges. 
So we thought it was in the best interests, both in terms of 
the production line, but most importantly for the taxpayer and 
for the Army, to extend that contract. And I am hoping that 
that comes through to fruition.
    As to the Armed Aerial Scout, it is still a priority for 
us. We are looking at an analysis of our way forward. As you 
know, for now we are dealing with the Chinooks and the CASUP 
[Cockpit and Sensor Upgrade Program] program, the cockpit 
upgrade program as a bridge to that. And the Chinook will be a 
part of our inventory probably until at least 2025. But we 
still believe we need an Armed Aerial Scout program, and we are 
pursuing it as an important priority.
    General Odierno. If I could just add to the last piece, the 
Armed Aerial Scout is important for us. It is an important 
capability that we have to sustain. And as the Secretary said, 
we are doing an analysis of alternatives that will be done in 
2013. And once we do that, we will have to make a decision 
whether we go to a new aircraft, or do we continue then to keep 
the Kiowa Warrior and upgrade the Kiowa Warrior? That will be a 
decision that is made next year. And right now we expect to 
have the Kiowas, as the Secretary just said, the Kiowa Warrior 
through 2025. So this is an incredibly important program. We 
will look at the analysis of these alternatives that we have 
next year, and then we will decide on how we want to move 
forward.
    Secretary McHugh. I said Chinook. Obviously, Kiowa Warrior. 
Thank you.
    Mr. LoBiondo. Thank you. Mr. Secretary and General, thank 
you.
    General, can you tell us what you believe the status and 
readiness of the Army's current inventory of prepositioned 
equipment is?
    General Odierno. I feel very confident with it. In fact, we 
have just actually issued our predeployment equipment in Kuwait 
to the brigade that moved out of there from Iraq. And they have 
been exercising with it. And it was in very good condition. It 
is important for us to sustain our prepositioned fleet in very 
good condition. Now, we are going to continue to review this. 
As we now look at this change in strategy, we will look at, do 
we have to make some minor adjustments in prepositioned fleets? 
Are they in the right place? Do we need some training 
preposition stocks to do multilateral training in the Pacific, 
to do rotational training in Europe? And we will take a look at 
that. And as we are downsizing, we have an opportunity here to 
use some of the equipment that were in some of our forces 
potentially to use in these prepositioned sites. So that will 
be a continued analysis that we conduct. It is a very important 
program. And it is going to become more important as we move to 
the future.
    Mr. LoBiondo. Thank you very much.
    The Chairman. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And Mr. Secretary and General, thank you all for being here 
today.
    Obviously, time is an issue right now. I was wanting to 
hear a little bit more about the importance of a rampdown in 
attrition. But I think, General, you mentioned that, that that 
5-year plan is so important to what we are doing to be able to 
keep the best of the best. I also wanted to talk more about 
equipment. And I know in one of our readiness hearings a while 
back, we were discussing about where do we go with equipment? 
How tied down are we to equipment we might have versus what we 
think we might need and some of the future challenges we have.
    So the two questions I want to zero in on, I am going to be 
spending quite a bit of time next week with a lot of our 
Reserve and Guard Components in North Carolina. Just what do 
you all anticipate the role of the Guard and Reserve being and 
how we are going to balance that out toward the challenges we 
have?
    General Odierno. I will take that first.
    In terms of the Guard and Reserve, first, the lessons we 
have learned here is that we have to have a total Army. We have 
to have certain capabilities in the Active Component, but we 
have to have ready capabilities in the Reserve Component for us 
to be successful as an Army, especially as we continue to 
downsize. So what we want do is take advantage of the 
experience that we have gained in our Reserve Component, as 
they have been a significant part of our deployments in Iraq 
and Afghanistan. So what we are going to do is we are going to 
set up a progressive readiness model that will enable us to 
attempt to sustain key components of the Reserve Component and 
continue to sustain an operational Reserve.
    It won't obviously be as big as it is now because of the 
requirements in Iraq and Afghanistan, but what we will do is 
rotate units through and provide them more dollars in order to 
sustain a readiness level that will enable them to continue to 
contribute on a rotational basis operationally. And I think in 
the long term, that will help us to sustain a higher readiness 
rate within the Reserve Component. So we are very focused on 
that.
    Secretary McHugh. If I could add, Mr. Kissell, we worked 
very hard over recent years to try to upgrade the level of 
equipment within the Reserve Component, both the Reserve and 
the Guard. And I think the data points suggest we have come a 
long ways.
    For example, the equipment on hand ratings right now for 
the Active Component is 87 percent. The National Guard is also 
87 percent. And the Reserve is 86 percent. And based on this 
budget and the FYDP in which it lies, we hope to grow the AC 
[Active Component] to 94 percent, the Guard to 92 percent, and 
the Reserve to 90 percent by just the end of 2013. So, the 
challenge, as the Chief noted going forward, is to make sure we 
maintain that level, both in the readiness side and the 
equipment part of that rating and also of course the personnel. 
And how we do that is something that I want to give a tip of 
the hat to the Chief and to the leadership of both the Guard 
and Reserve Components are working together to make sure we 
have a readiness model that works and everybody agrees upon.
    Mr. Kissell. Thank you, gentlemen. And one quick question, 
research and development. Do you feel comfortable that we have 
enough moneys allocated for that to keep us ahead of the fight 
in all situations?
    Secretary McHugh. Well, as Mr. Smith said, would I take 
more money? And the answer is sure. But within this budget 
construct that I think we all agree is achievable and is 
viable, the R&D [research and development] I think line is 
sufficient to keep us where we need to be.
    Mr. Kissell. Thank you, sir.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    At this point, we will recess. And maybe they will just 
have one vote anyway. We are going to expedite, and hopefully 
the recess will be as short as we can make it. Thank you.
    [Recess.]
    The Chairman. The committee will come to order.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank the witnesses for being here. I appreciate you 
and your service. The budget that we just had proposed cuts 
Army depot expenditures in 2013 by 50 percent. Could you 
explain to me this drastic cut, how you arrived at 50 percent, 
particularly since the budget document itself says that we have 
a backlog of equipment that has to be reset?
    Secretary McHugh. Well, we do have a backlog, as we 
retrograded--we retrograde out of one theater and retrograde 
out of the other. But we had to fit in the reset program within 
our entire budget allocation. We tried to do it in a way that 
would ensure that the rates are sustainable, so at least in the 
near term we are not causing any work disruption or work 
interruptions. So it was both a strategy but also a budget 
decision that was one of those hard ones that I spoke about. 
But we think it will keep the lines open and progressing as we 
go through this FYDP.
    Mr. Rogers. Fifty percent we will be able to keep the lines 
moving? That is a steep hill to go off.
    General Odierno. In the base budget, we sustain 50 percent. 
But there is also a piece of OCO that will be used to fund 
this. I think that is where the rest of this will come. It will 
come out of Iraq and Afghanistan.
    Mr. Rogers. Okay. I share the sentiments of Mr. Reyes when 
he talked about not letting this base go cold and what it can 
mean to us. As you know, the Anniston Army Depot has the 
largest public-private partnerships of any installation in the 
country. And we worry very much, when you talk about Stryker 
being one of those lines that would go cold, about losing those 
folks.
    Secretary McHugh. I was just, I am sorry, I didn't mean to 
interrupt you, Mr. Rogers, but the Chief makes a good point. A 
lot of what we need to do, a lot of what we hope to be able to 
do will be dependent not just after--or up until drawing out of 
the theater in Afghanistan, but for 2 to 3 years afterwards in 
terms of sustaining OCO. And it is not just in the kinds of 
things that people often think about. It is critical for our 
depots to have those funds available for our reset of equipment 
as we draw out of Afghanistan as well.
    Mr. Rogers. So, based on this budget, this core budget and 
OCO funding, do you believe you are going to be able to meet 
your requirements as outlined in Title 10 for combat vehicles?
    General Odierno. The issue becomes that OCO is a 1-year--we 
don't know what we get from year to year. What we are getting 
in 2013, we have enough to do what I think we need do. What we 
don't know is what the OCO would be in 2014, 2015, 2016 and we 
would say probably 2017, 2 to 3 years after we finish coming 
out of Afghanistan. We are making it clear that we need support 
for reset in those years in order to not only--it would not 
only support the depots, but it also is about the readiness of 
our capabilities.
    Mr. Rogers. I have had several conversations with General 
Dunwoody and General Stein about my concerns about our depot 
network and our readiness. As the Secretary notes, because he 
was on this committee at the time, when we went into Iraq and 
Afghanistan, our depots were not up to speed. And it took us 18 
months. And General Dunwoody has assured me that you all have 
learned those lessons and will not let that happen again.
    But when I look at these numbers, it worries me. Because 
you all know we could be in Iran or somewhere over there in the 
next 6 months for all we know. And I want to make sure that you 
are confident that you have got what you need for a surge 
capability. Nobody knows a surge capability more than you. And 
if these numbers aren't working for you, you have got to tell 
us. Because if it is affecting us, that is our problem; that is 
not your problem. So we count on you to tell us what you need 
to be ready.
    When you made your comments about being leaner going 
forward, and you outlined your numbers for end strength, let me 
ask do you think you are going to be prepared to deal with 
another theater of war that may open up in 3 years at those 
numbers?
    General Odierno. Congressman, I do. I think with the size 
of the force we have, we will be able to conduct combat 
operations. We will have the capability to do that. Where we 
have a little bit of risk is if it gets extended. So what we 
are not--what we don't have is a force that could do long-term 
stability operations over a long period of time. So if that 
occurs, we are going to have to relook growing the force again. 
But we will use the Reserve Component as a buffer in order to 
have them help us to give us the time to grow the force if we 
get engaged in another major theater of war.
    Mr. Rogers. Good. And I do hope that you all vigorously 
pursue the FMS, because I think that is a great way for us to 
keep some of these lines hot.
    Thank you very much. My time has expired.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thanks, Mr. Chairman.
    And gentlemen, thanks for being here. I appreciate that. I 
want to just make kind of a gratuitous comment. I appreciate 
the continued commitment to the WIN-T [Warfighter Information 
Network-Tactical] program and the JTRS [Joint Tactical Radio 
System] communications programs because I do think those are 
important to leaner and more agile, and all those kind of 
adjectives that we throw at it. But those are the tools I think 
that allow you to go to that. Following up on Mr. Rogers' 
comments, and perhaps--on page 7 of your summary listing Army 
components, you list the Reserve Component as one unit. And 
maybe today or soon we can start that arduous conversation 
about why we have a Reserve and a Guard--not today--but it may 
make sense, given that, to look at it. I was here in 2005 and 
on, and watched some of the struggles of converting the Guard 
and Reserve from a strategic force with a domestic mission, to 
a tactical force that was used extensively, to today downrange, 
you can't tell--unless you know the patches and understand the 
org [organizational] chart, you can't tell the difference 
between a Guard unit and an Active Duty unit. So General, over 
the next 5 to 10 years, will you have in place the right 
readiness matrix to make sure that that Guard and Reserve 
Component stays ready for the fight? And how will you look at 
rotating the, for lack of a better phrase, quick reaction 
force? Because if you do that extended deal, somebody has got 
to be first. And how do you keep those guys ready, and how do 
you rotate that readiness issue through that system in order to 
make sure that we don't have those growing pains we experienced 
in the original conversion?
    General Odierno. As we went through it, I think as most of 
you are aware, as we went through this process, continuing to 
go meet our commitments in Iraq and Afghanistan, we developed 
what we called Army Force Generation Model, which put both 
Active and Reserve Component units, National Guard, Army 
Reserve, Active, through a sequence of preparing themselves to 
get mobilized, to get ready, and then to deploy.
    As we come out of Iraq and Afghanistan, we are going to 
adjust that process. We are not going to walk away from it, we 
are going to adjust it. And we are going to keep a process 
where Active and Reserve Component units will be in a reset 
phrase, a training phase, and an available phase. We are still 
working on----
    Mr. Conaway. When you said Reserve, that includes the----
    General Odierno. National Guard and U.S. Army Reserves.
    Mr. Conaway. Okay.
    General Odierno. And what we will do is, for an Active 
unit, for example, a cycle would be 24 months, and they spend 6 
months in reset, 10 months in training, 12 months available, 
whatever time it is. And then for the Reserve Component, it 
would be a bit expanded because maybe over a 60-month period, 
but allow them to rotate through, so we would always have a 
portion of the National Guard and U.S. Army Reserves ready to 
go. And what it also does is it will enable us to sustain 
readiness across the force over a long period of time. So that 
is the intent of our process. We are working through the 
details of this and how it is funded and how we sustain them 
over time. And I think we are going to be able do this. We are 
working very closely with mainly the National Guard, but also 
the U.S. Army Reserve on this concept.
    Mr. Conaway. Will the readiness reporting program that you 
have morph into something that will be able to show us, this 
side of the table, where we are at any one point in time with 
respect to those?
    General Odierno. It is going to have to. And it is going to 
have do it for the total Army.
    Mr. Conaway. Right. Right.
    Thank you, Mr. Chairman. Yield back.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your service, and General 
Odierno for your service and for your family's sacrifice, as 
well as your own. There is one thing that both of you 
mentioned, the JLTV [Joint Light Tactical Vehicle]. I want to 
run through a few things. The new requirements don't require 
blast or underbody protection to the same stringent 
requirements that they were originally stated.
    First question is, why relax the requirements? And I am 
going to keep going, if you don't mind. Why did we relax the 
requirements? Why did we relax the weight limit? If you go over 
13,000 pounds, as you know, it makes you less mobile, whether 
it is air mobile or if you are putting them on--if you are 
putting these--because the Marine Corps is going to use them, 
too, they are going to be on ships; they are going to be 
heavier on the ships as well. From what I could see from all of 
the different people, all of the different vendors that are 
applying for this, their vehicles come in around 13,000 to 
16,000 pounds or more when you add their armor kit on, which 
makes them--you can't carry them in fact then in a CH-46.
    My specific question is about Ford Motor Company. My 
district is in San Diego; Ford is not there. I have no dog in 
this fight, no horse in this race. Ford has offered to build 
the next ``Humvee'' [High Mobility Multipurpose Wheeled 
Vehicle]. They have offered to spend $400 million of their own 
money to do it. They have offered to come in with multiple 
prototypes to give you to say, here is what we have. This is 
the second largest car manufacturer in the Nation, a 
manufacturer that goes back, if you go back to World War II and 
Korea, making American products for American military 
personnel.
    Let me run through a few things on Ford. They can come out 
at $225,000 per vehicle. And what is more important, Ford 
estimates, because they make cars and trucks for a living, 
their estimates now, their original estimates will be within 4 
percent of their actual production costs. So there is not going 
to, as we look at all these different programs, we all know it 
is pretty hard to get it within that 4 percent. Ford can do 
that. What they tell you now will be what the vehicle costs in 
the future. They can save us over $100 billion, taxpayers, 
Congress, and the Army and Marine Corps over lifecycle costs 
and production costs over the life of this vehicle. The most 
troubling aspect of this is this: This is a quote from DOD, 
talking about why the procurement date for this is set up for 
this June. The main question is Ford asked for an extra 12 
months so they can compete for this. They were turned down by 
DOD. DOD said no. And here is what they told Ford. Ford, they 
could come in with more armor at less weight and provide more 
bang for the buck, basically. They said, in source selection, 
no credit will be given for proposed performance above the 
threshold or at objective levels. What that translates to is if 
you make something that is clearly superior in protection, 
maneuverability, and weight, we don't really care; we are going 
to do this anyway.
    The only reason that DOD says to exclude Ford that I have 
seen from all the documents that I have read on this is that 
the money may, it may be taken out of the budget by Congress. I 
think the Senate tried to kill this last year. It was a fight. 
The money was put in there anyway. So the only reason we are 
doing this now this year, even though the vehicles won't be 
fielded until we are out of Afghanistan, is because the money 
may be taken out of the budget. I am not getting this at all. 
In this climate, with what is going on, we are going to be out 
of Afghanistan. We are going to need to be more maneuverable. I 
don't see how we make a Humvee in the future that doesn't have 
underbody protection and that can't come in under 13,000 
pounds, which Ford says--and theirs is called the Joint Marine-
Army Vehicle, the JMAV or something.
    They say they can do all these things and all they are 
asking is for 12 months so they can compete. That is it. I 
mean, I guarantee you if you look at what was more people in 
this room, if you told them to just give us 12 more months, and 
we will give you something that costs a lot less and provides 
more bang for your buck, we could almost guarantee it because 
for God's sake, it is Ford. Ford. And I don't drive a Ford, by 
the way. So my dog is even more out of this fight. I drive a 
Chevy. I don't understand.
    And I guess I am just asking for some clarification, 
explanation, or why can't we just work together on this and get 
it right this time and show how you can be a shining example 
for the rest of DOD and the military procurement system and 
say, here is how we did it?
    Secretary McHugh. As you know, Congressman Hunter, the 
program and whatever changes are made in the requirements came 
about as a result of the discussions between the Marine Corps 
and the Army. There was a back and forth as to levels of 
protection, weight trade-offs, et cetera. And I would certainly 
defer to the Chief as to some of the specifics on that.
    I do drive a Ford. It is a great company. And it has done 
amazing things in difficult times. And frankly, when this RFP 
[Request For Proposal] first hit the street, we were very--I 
was very hopeful that they would choose to participate and to 
go ahead with the program. They chose not to. That was a 
disappointment to us.
    But we had set the ground rules. We had put out the RFPs. 
Every competitor, and we have had I believe six companies now 
that are all very credible and have played by the rules that 
were set out. And from a general acquisition perspective, I 
think, and I can't speak for DOD, it would be a very tenuous 
decision to pull back an RFP based on a single manufacturer 
saying what they may or may not be able to do when they chose 
not to compete.
    Now, Ford can submit it any time during the process an 
unsolicited program that we will fully consider. But we can't 
pull plugs on developmental programs where everybody else is 
playing by the same rules because a single competitor, as great 
as Ford is, says, here is what we promise you we are going to 
do. It is just I think would be a bad precedent to set. And 
that was part of our problem. I am not even sure, frankly, it 
would be legal.
    I don't know if the Chief would want to add.
    The Chairman. I don't think we are going to resolve this 
today. Let's call this kind of an opening gambit.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you for your service, General Odierno, Secretary 
McHugh. I am concerned about--I agree with you in the bottom 
line cuts. I believe cuts can be made to the Department of 
Defense. I don't believe that--I believe the sequester goes way 
overboard. I don't think there is any disagreement in that in 
this committee on either side. But let me just say, express to 
you some areas that I think that I would like you to look at. 
Because I am concerned that we are cutting capability, and by 
cutting capability, we are increasing risk to our national 
security. One is I just think that there is a top-heavy nature 
to our military across the board.
    I think if we look at the ratio of flag officers or general 
officers to the number of soldiers--and this is in every branch 
of the service, I believe--it is just--we are too top-heavy. 
And we really need to look at slimming that down.
    Next, I know there is talk about that we ought to slow down 
pay increases moving forward as a cost savings measure. I 
disagree with that. And let me give you another area that I 
would like you to look at. And that is slowing our promotion 
system down. I think that--first of all, I think it moves too 
fast. I think that we would increase--not only have a cost 
savings, but increase the professionalism of our military by 
slowing down the promotion system, allowing soldiers to spend 
more time in grade in their respective military occupation 
specialties before they move on. When you have an organization 
that has the kind of quality that the Army, United States Army 
has today, which is extraordinary, and you have the kind of 
retention with highly qualified soldiers wanting to remain in 
the Army, it only makes sense that we do the math, and we slow 
down the promotion system.
    Next, I think Guard and Reserve, I am very disappointed 
that we have cuts in the Guard and Reserve envisioned in your 
plan. Where I think what we ought to be doing is increasing the 
size of the Guard and Reserve, quite frankly, through 
reductions on the Active side. I mean, Secretary of Defense 
Gates before he left warned this committee repeatedly of the 
trajectory of personnel costs and how it was eating into 
acquisition costs, irrespective of the cuts that are before us 
now. And so to me, we can retain capability and do savings by 
looking at our force structure and more aggressively 
transferring units to the Guard and Reserve that we don't need 
say expeditionary forces or forces that truly need to be on 
Active Duty.
    You know, next I am concerned about we are going to go 
through a BRAC round, a Base Realignment and Closure 
Commission, at the same time that we are still retaining 
permanent bases overseas without adequate participation of our 
allies. In NATO [North Atlantic Treaty Organization], most of 
our NATO partners are spending less than 2 percent of their GDP 
[Gross Domestic Product] on defense. We are at about 4.7 
percent right now. Yet we have 45,000 troops in Germany, 79,000 
troops, I think, in Europe all together. We are moving two 
Brigade Combat Teams, heavy Brigade Combat Teams, I understand, 
out of Germany out of that 45,000. But I think we ought to look 
at if they are not involved in the prepositioning of forces, if 
they are not expeditionary in nature, they ought to come out of 
Europe. We can demonstrate our capability by doing some of the 
things you mentioned, having rotational forces. And certainly 
doing joint military exercises demonstrates our commitment to 
the North Atlantic Treaty Organization.
    In South Korea, you mentioned 20,000 soldiers in South 
Korea. There are substantial--and this is obviously DOD--
military construction programs going on. I believe it might be 
suspended, some of it might be suspended in terms of looking at 
bringing dependents over, but at a time when South Korea is 
spending 2.7 percent of their GDP. You know, so we are looking 
at closing bases down in the United States, and yet retaining 
overseas permanent military bases for allies that are spending 
much less on defense than we are. We need to get them to do 
more.
    So let me leave it open to you on those points. But I am 
disappointed in the direction of these cuts. And I think they 
compromise capability where I don't think we need to.
    Secretary McHugh. First of all, and I will try to go as 
quickly as I can, we agree with you on general officers. And in 
fact, that was an initiative that Secretary Gates had already 
begun. General Odierno can speak very eloquently as to the 
closing down of a COCOM [United States Combatant Command] and 
JFCOM [United States Joint Forces Command], and elimination of 
a four-star. We downgraded the number--the four-star to a 
three-star U.S. Army Europe, and on and on and on.
    Pay increases.
    Mr. Coffman. I would love to see what ratio you would come 
you with between flag officers and soldiers at the end of that. 
I am sorry that we are out of time.
    The Chairman. The gentleman's time has expired.
    Mr. Coffman. If you could get to me on the record on any of 
these questions I would appreciate it.
    The Chairman. Mr. West.
    Mr. West. Thank you, Mr. Chairman, and Mr. Ranking Member.
    And also I want to thank the panel, Secretary McHugh.
    I would like to publicly recognize General Odierno, and 
thank you for the privilege and honor of serving as a battalion 
commander under your command of Fourth Infantry Division.
    And also to my brother red leg sitting back there, colonel 
Thompson, it is good to see you again.
    The question I have, you know, we have been down this road 
before. Mr. Wilson talked about Task Force Smith. When I look 
in the decrease of the combat brigade formations that we are 
having, can you talk to us about the ramifications you see as 
far as the combat tours of duty? Because I really believe some 
of these second and third order effects we see with some of 
these social issues that we had just talked about relates to 
the amount of tours that our young men and women are having to 
serve in these combat zones of operation. So, have we looked at 
the ramifications of what can happen with maybe increased tours 
in combat zones?
    General Odierno. Congressman, thank you very much.
    In terms of--we have looked very carefully at this as we 
have decided where to take force structure out. Because we are 
now out of Iraq, it has made a significant difference in the 
OPTEMPO [Operational Tempo] of our combat forces. And now that 
we are starting to reduce our presence in Afghanistan, that has 
also impacted that.
    So we feel that as we grew the Army in the mid-2000s to 
meet those requirements, now that they are going away, we now 
have the right force structure to be asked to do what we 
currently are doing. As I said earlier, where we might incur 
some risk is if we got involved in two major theaters that were 
extended over a long period of time.
    For our initial combat operation, we have more than enough 
capability. We will have the competence to conduct those 
operations. So I feel comfortable with that. If they get 
extended again, that is where we run into some risk of the 
things you talked about, increased OPTEMPO on our soldiers and 
all the other things that go along with this that we are 
dealing with today. So we are very cognizant of that. That is 
why it is important to build some reversibility into what we 
are doing so we can, if necessary, increase immediately the 
size of the Army.
    And one of the things we will do is we are going to 
maintain officers and noncommissioned officers in our 
institutional Army. We have migrated them out over time. So we 
have more in the training base, we have more--so if we have to 
expand, we will be able to keep the expertise and then use them 
to help us expand, if necessary, as we move forward.
    Mr. West. Second question, we had a briefing earlier this 
week about operations in Afghanistan.
    And one of the things that I think was a very key lesson 
learned that we finally got to was the VSO program, the Village 
Stability Operations program. And of course, right now, they 
are looking to expand that VSO program. So when I look at the 
fact that we are talking about putting more responsibility and 
burden on our Special Operations, you know, are Special 
Operations Forces in the United States Army going to be capable 
of expanding and extending the VSO operations in Afghanistan? 
As well, do we see possibly our conventional forces having to 
augment the VSO programs?
    General Odierno. Thank you, Congressman.
    We are in fact continuing to increase our Special 
Operations Forces throughout this budget. We will go up to 
35,000 Special Operations Forces. We have increased in every 
area. We have increased Rangers. We have increased Special 
Forces battalions, the numbers, the companies involved. We are 
increasing their logistics capability. But as we are increasing 
VSO operations, we are also building on the relationships that 
have been built between the Special Operations and conventional 
Army. And as we do that in fact, you are going to see 
conventional forces pick up a piece of this mission. And in 
fact, you will see that in this year, that we are using 
conventional capabilities to help with these VSO operations. 
And I think it is important. We have learned that we can do 
that. And it is a good partnership in order to best utilize our 
Special Operations Forces in conjunction with the capabilities 
of our conventional forces to support them in these key 
operations. And I think you will see more of that as we move 
forward in Afghanistan.
    Mr. West. And last point, being from down in South Florida, 
I will tell you that I am quite concerned about the SOUTHCOM 
[Southern Command] AOR [Area of Responsibility]. The fact that 
Ahmadinejad was visiting Cuba, and we have Hezbollah training 
camps down in South America in the tri-state area. So I would 
hope that we don't forget that, and, you know, we can't 
continue to see it as an economy of force operation. Because 
that is pretty near and dear to us. And I believe that the 
enemy is seeing that we don't--are not portraying a very strong 
presence down in the SOUTHCOM AOR.
    So with that being said, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman, and gentlemen, for being 
here today, for your leadership, commitment to our troopers, 
families, and veterans.
    Let me just say from the outset that I am generally 
supportive of what you are doing here in the budget, 
particularly some of the major pieces of it.
    Notable exception, I associate myself with Mr. Coffman, a 
lot of his remarks with regard to positioning of our forces. 
But what I would like to explore here in the next few minutes 
is the nesting of operational concepts. Interested to know to 
what degree we use modeling and simulation. As you went through 
the strategic review, and particularly here at the joint 
operational concept that drives the Army operational concept, 
because so much of this leads to requirements and the need for 
structure and procurement, leader development and everything in 
that regard.
    Last time the Army operational concept was published in 
2009, very aware of how all the ins and outs to make that 
happen. Certainly have no expectation that there is a new 
document on the street. But in your notes that you took as you 
went through the process of the strategic review, if you could 
share with me the notable points with regard to the 2009 
document that you think may need to be readdressed in the 
current process of operational concept. And then other 
deductions and risks that you see in the force in relation to 
what we think we are going to need.
    General Odierno. As we have looked at it, first, it is 
about looking at the last 10 years and also trying to project 
out what think we will see in the future. Under the operational 
concept document, one of the key things is what we see the 
threat will be in the future and how we must respond to that 
threat. And it is a concept of the hybrid threat. It is a 
concept of the fact that we will face an adversary that has a 
combination of conventional, unconventional, regular, terrorist 
activities, criminality, and that we have a force that is being 
developed that can meet that spectrum of conflict. And oh, by 
the way, different pieces of it from the lowest end combined 
all the way up to the highest end, and that we don't believe we 
will ever see a straight conventional conflict again in the 
future. That is one of the key pieces that we are using as we 
move forward.
    And if you have a chance to go out to our national training 
centers, you are going to start to see us, as we go through 
training rotations, that this will be part of this. Training 
and Doctrine Command is currently running a series of seminars 
that they are looking at how we develop leaders for this 
environment, how we develop tactical and operational concepts 
to operate in the future environment, and how do we incorporate 
the lessons that we have learned over the last 10 years?
    So I think after we get the results of this work done by 
TRADOC [Training and Doctrine Command], we will then look at 
updating our operational concept and look at where we want to 
go. And the last point I would make--and I don't want to take 
too much time--is then this relationship between conventional 
and Special Operations Forces, and how that has changed over 
time, and the benefits we have gotten through the integration 
and synchronization between conventional and Special Operations 
Forces, and how that fits into the operational concept. I think 
those are some of the things that we are going to focus on.
    Mr. Gibson. So as you look left and right to your sister 
services and you think about it in view of the Joint Force, I 
will just share the concern that I have is that as we look at 
the joint operational concepts, we look at the potential 
employment, I am just concerned that we haven't--and for good 
reason, over the last decade, we have been very involved in 
achieving these objectives in the Central Command AOR, but that 
we have actually done all the planning, the detailed planning 
have added up, have done the math to look at what is required 
to move the force, the risk associated, the timeline. And as I 
look at 301 platform United States Air Force and I consider the 
Navy's dimension in this, and then I think about the Joint 
Force delivery if we ever--you know, we pray it isn't the case 
that we have to deploy it for a major theater of war, but we 
know if we are ready, there is less chance that we will have 
to, particularly when we exercise it and demonstrate it to the 
world that we have that capability, I am just concerned we 
haven't really done yet the detailed planning and then looked 
at the experimentation that is required, the exercising that is 
required, the information ops that would go with that, and 
would look to you to sort of assuage those concerns.
    General Odierno. I don't disagree.
    In fact, a couple things let me just add. As I look back, 
it is about unity of effort. It is about understanding the 
different dimensions of warfare. I didn't get into information 
operations, cyber warfare, all of those things that now must be 
incorporated in our joint operational concepts. We are 
currently doing that. It is about understanding how we develop 
these in training our headquarters at all variety of levels. 
And that is all part of this as well. And I concur with what 
you said.
    Mr. Gibson. Thank you, gentlemen. I yield back.
    Mr. Runyan. [Presiding.] Thank the gentleman.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I want to talk with you a little bit about 
TRICARE and the proposed rate increases. Currently, our 
families are paying about $460 for the TRICARE Prime. By about 
2017, that would move to $2,048 under the proposal. And this 
past year, if I am not mistaken, we asked that those rate 
increases be limited to the increases in the retirement plan. 
Is that not correct?
    Secretary McHugh. You have to restate. I am sorry, Mr. 
Scott, could you say that again?
    Mr. Scott. The rate increases for the TRICARE Prime, you 
all have asked us to allow you to go from $460 to $2,048. That 
is a significant increase to people who have earned that 
benefit. And quite honestly, I come from a risk management 
background. To me, that seems like something that if industry 
did that, that would be an indication that they were trying to 
actually push people out of it and shut the program down. And I 
guess my question is, is that the intent of the significant 
rate increases?
    Secretary McHugh. No, absolutely not.
    And one of the critical parts of this to consider, if you 
will, even after the full increases are into effect at the end 
of 2017, that rate will by every reasonable projection still be 
a very generous rate compared to an equal policy in the private 
sector, if you could obtain such an equal policy.
    I said earlier this is not something that we are 
particularly happy to do. And it was not something that we 
didn't do--that we did do, rather, without a great deal of 
thought and consideration. And after we talked about this 
amongst ourselves, all the service chiefs, all the service 
Secretaries, all the command sergeant majors, master chiefs of 
the Navy, we decided that this was absolutely essential to 
preserve the benefit. As we tried do is to tailor it and to 
layer it in a way that only those people who are of retired age 
under the age of 65 and are likely to be working, and based on 
their rank would receive the greater of those increases.
    Mr. Scott. Mr. Secretary, if I could, I am sorry, I only 
get 5 minutes, so I don't mean to interrupt. But you know, it 
amazes me that in this time that we are in, that we continue to 
take and take and take from the military under this 
administration. And yet for somebody who hasn't paid their 
dues, if you will, like our military service members have, 
there is no proposed reductions for food stamps. And in fact, 
there is no meaningful reductions for any of the entitlement 
programs that truly are driving this country off a fiscal 
cliff.
    With that said, for the retirement changes that are 
proposed, you propose to go to a BRAC-like commission, which 
would be a straight up or down vote by the Congress and would 
essentially not allow for the individual input of the Members 
of Congress. Why do you believe that that that is a better 
route than to go through the normal committee process?
    Secretary McHugh. Well, I am glad you used the word 
``better'' and not ``best,'' because there is no good way to go 
about this. As Secretary Gates said as he looked at the 
retirement system the military currently employs, we ought to 
ask some questions about the fairness of it. We ought to ask 
some questions about perhaps configuring it in a way that would 
allow people to vest more early. Would that, in fact, help us 
to recruit and ultimately retain folks in a different and 
hopefully better fashion?
    It seems to me that the best way to go about that, as we 
saw through the BRAC process, is to do a true and independent 
body. If it is the opinion of this Congress to do it 
differently, well, that is something I am sure you can talk 
about with the Administration.
    Let me just say why we looked at this healthcare proposal. 
Number one----
    Mr. Scott. Mr. Secretary, I am sorry. I am down to about 45 
seconds, and I apologize. But again, it is a reduction in 
benefits to those who protect our personal freedoms, and 
individual liberties, and, quite honestly, economic 
opportunities for other Americans. But the President refused to 
make any proposal to deal with the entitlement benefits for 
those that aren't contributing.
    One last thing. The traumatic brain injury is certainly an 
issue that we have done a better job of that. I want to commend 
you for the work that has been done there. Some of the 
gentlemen that I have met with spoke very positively about the 
use of the hyperbolic chambers, the same way you would treat 
bends, and the benefit that they had from using those machines, 
yet the VA [U.S. Department of Veterans Affairs] has refused to 
pay for that.
    I am out of time. I would appreciate it if you would work 
with us with the VA to make sure that those service members 
that do have that traumatic brain injury can receive that 
treatment.
    Secretary McHugh. We have five programs in the Department 
of Defense including the Army that are currently looking at the 
efficacy of that. I would say if those programs prove 
promising, I am not going to wait for the FDA [U.S. Food and 
Drug Administration] or anyone else. We will authorize those 
treatments.
    Mr. Runyan. Mr. Schilling.
    Mr. Schilling. Thank you, Chairman, Ranking Member Smith.
    First, I would like to thank you two gentlemen for your 
dedication to not only our country, but to our warfighters is 
greatly appreciated.
    Just a couple of things quickly. What I was wondering, 
Secretary McHugh, I have been aware of a study that has been 
ongoing to address the organic base in the future. And I was 
just wondering, do you know when we might see that plan or when 
it is going to be released?
    Secretary McHugh. I believe you are referring to the 
Department of Defense's S2T2, sector-by-sector, tier-by-tier 
analysis. That actually started in 2011. I do not believe DOD 
has placed a timeline on it, but obviously these issues are 
relevant and current, and we are working, as all of the 
services are, with DOD to bring it to a conclusion so we can 
make some decisions and plod our way forward.
    Mr. Schilling. Very good. Thank you, sir.
    And then, General, one of the things that I am concerned 
about is that as we do these, the cutbacks--and I am sure you 
are concerned also--but one of the things that is really 
important is the Rock Island Arsenal, which is one of the areas 
that myself and then Mr. Loebsack represent. But back in 2006, 
when our troops were faced with the IEDs [Improvised Explosive 
Devices] that would rip through the nonarmored doors in their 
vehicles, the arsenal was the group that were basically stepped 
up and took this challenge, and within 3 weeks they were able 
to turn these doors around.
    The FRAG [Fragmentary Armor] 5 kits is what they called 
them, and which allowed the private sector or the folks outside 
to get these things out. And that is one of the main concerns 
that we want to make sure is just because the turnaround was 
faster than the industry could ever do, and that is one of the 
things when it comes to warfighters is to make sure that we 
keep those warmed up, of course.
    General Odierno. Again, it is about having that organic 
capacity that enables us to respond quickly, and it is about 
developing the core capabilities that we want to sustain within 
our organic capacity. And that is what we are watching. The 
Secretary and I watch that very carefully. General Dunwoody, 
Commander Army Materiel Command, watches this very carefully, 
and that is something we will not sacrifice and don't want to 
as we move forward.
    Mr. Schilling. Awesome. Thank you for your service.
    I yield back.
    Mr. Runyan. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman, Mr. Secretary, General 
Odierno. Always a pleasure and privilege to be in your company; 
John, for your service here many years and allowed me to try to 
fill your shoes here on the committee when you went over to the 
Department.
    And, General Odierno, I think I first met you in Kirkuk 
many years back, and I have always been amazed at your great 
leadership, and humbled to be able to work in any capacity with 
you. We are a blessed Nation because of both of you in your 
service to the Nation, and to the men and women in the Army and 
their families. They are all in good hands because of both of 
your leaderships.
    I am going to try to be quick because I may be the last one 
holding you from getting out the door. And I think the 
gentleman from Texas, Mr. Reyes, may have raised the issue of 
the modernization of the Bradley Fighting Vehicle. I say up 
front BAE is a great employer in my district and is a wonderful 
company to work with, but, more importantly, they build an 
incredible piece of equipment in the Bradley.
    And the concern that I think Mr. Reyes raised, I would just 
echo that. In looking at the 2013 budget request for the 
modernization of the Bradley, it looks like it would require a 
shutdown of the operating line at some point, and my worry is 
what the cost will be to restart it, but maybe even more 
importantly, the ability to restart it because of the loss of 
the skilled labor force that is incredible, including many 
veterans of Vietnam and wars since, including most recent. When 
I visit there at the plant, I usually run into some guardsmen 
who are now back on the line building the vehicles that, you 
know, they and others benefited from in the combat theater.
    So I guess I first would just echo his concern, and 
encourage any and all efforts that we can to find a way to not 
allow that line to shut down and the consequences that may come 
from that both financially, and again, most importantly, from 
the ability to restart it with the skilled labor force that is 
unmatched by any other.
    Related to that is it is my understanding also that the 
Army's engineer forces, that their Bradleys are not, you know, 
the most upgraded and comparable to the Bradleys or M1 tanks 
that are found in the other elements of the Heavy Combat 
Brigade Team. And is it possible to look at those upgrades to 
bring them up to par and so we are all on the same level as 
also a way to then prevent that shutdown and, again, the 
consequences?
    So, you know, I appreciate your consideration of those 
concerns as you look at how to balance the books and make it 
all work. And I know you have a difficult assignment and take 
that assignment very seriously.
    A final issue, if I can just put on your--related to 
upgrades is the 4-year testing schedule for the Paladin 
howitzer system, and if there is any ability to expedite that. 
That seems like a pretty lengthy process for what is basically 
an upgrade of a current system, not a new system, so--another 
concern.
    I appreciate your service and leadership, and having the 
privilege to represent the Army War College, and AHEC [Army 
Heritage and Education Center], you know, it has been a 
remarkable honor to serve on this committee. And my final 
years--I will leave Congress at the end of this year and see 
what happens next--but serving on this committee and having the 
privilege to interact with true American heroes such as both of 
you in your service has been something I will always treasure.
    If you would like to respond to any of those concerns, I 
would be, you know, really grateful.
    Secretary McHugh. First of all, I want to wish you on a 
personal level all of the best in the future. I have truly 
enjoyed the opportunity to serve with you, and you do great 
work. And, you know, Army-centric here, but your very effective 
representation was very moving to me personally.
    We share your concerns on the industrial base. We have 
talked about it several times. The Bradley program is turning 
down, and we are working as we are in other facilities to try 
to find ways to fill those gaps, particularly for the higher-
end employee positions, the engineers, the highly trained 
technicians, et cetera, et cetera. And whether, as I mentioned 
before, through PPPs or through foreign military sales, you 
mentioned the other services, obviously we are willing to 
consider all kinds of solutions to this.
    And one of the reasons we are working with the Department 
so we can have an a cross-services approach to our industrial-
based challenges, and the Secretary, Secretary Panetta, has 
made this a critical issue of his, and we are working with him 
very diligently to try to ensure that we have some answers.
    General Odierno. Just very quickly, again. Thank you for 
your service, your continued service, to our Nation and what 
you have done. I wish you the best of luck as you move forward.
    You know, some things we are looking at, you know, there 
are some programs, suspension track programs, that we are 
trying to put in there to help sustain that base, and we will 
continue to work with that over the next several years to make 
sure we sustain a readiness level there.
    With the Paladin program and the testing, this is something 
that the Secretary and I are looking at throughout all of our 
programs is the cost and amount of testing that we are doing, 
sometimes redundant, and so we are going to work very carefully 
with Congress in order to try to reduce the costs and length of 
some of our testing that is required. And we agree with your 
assessment of that.
    Mr. Platts. And as I said at the beginning, I know we are 
in good hands as you try to make this all fit and work, you 
know, to have the final product be what we need for our Army 
and ultimately for our Nation's defense. And we do plan to be 
back in theater at least once or twice more. I think it would 
be number 9 to Afghanistan and 12 to Iraq, if that works out, 
even with the drawdown, so----
    Secretary McHugh. Bring fudge.
    Mr. Platts. I will make a note. Next time I see you, I will 
have some of my mom's peanut butter fudge.
    So, Mr. Chairman, with that, I yield back.
    Mr. Runyan. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for joining us today.
    The new defense strategy and budget requests reflect the 
hard work and forward thinking of President Obama, our DOD 
civilian leaders, and our senior military commanders. I have 
been saying all week that ominous and exaggerated fears about 
the national security consequences of reduced growth in the 
defense budget are certainly unfounded. There is no way a 1 
percent reduction in the Pentagon's base budget from 2012 to 
2013 could mean the difference between the greatest military 
known to man or a hollowed-out force. And the American people, 
I think, understand that. In fact, I believe there is room for 
further savings in the Department's budget, though I strongly 
oppose the across-the-board cuts that would be imposed by 
sequestration.
    General Odierno, is it your assessment that Afghan National 
Security Forces are on pace to self-sufficiently defend 
Afghan's sovereignty and defeat insurgents by the end of 2014?
    And also, I would like for you to respond, General, to the 
February 1st quote of Secretary Panetta, when he said that 
hopefully we could reach a point in the latter part of 2013 
that we could make the same kind of transition we made in Iraq, 
from a combat role to a training-and-assist role. What is your 
interpretation of Secretary Panetta's remarks?
    General Odierno. Thank you, Mr. Johnson.
    First, I think that we have seen a continued increase in 
capabilities of the Afghan Security Force. I was there just the 
day--I got back the day before Christmas from there. I am 
encouraged by the progress that has been made by the Afghan 
Security Forces.
    I think as you see us move forward, we are going to--we are 
putting them more and more in front. I think we will continue 
to do that. As we learned in Iraq, it is important to do this 
slowly, do it right, but ensure that they are ready to take 
over so there is no backward movement. I think we are on the 
right track.
    In terms of Secretary Panetta's comments, I would say all 
along our strategy is to turn over responsibility to the Afghan 
Security Forces. And I think that as we continue to make 
progress, General Allen and others on the ground will make the 
decision exactly when this happens. But I think we all agree 
with Secretary Panetta that over time we are going to turn 
responsibility over to Afghan Security Forces. We will move 
back from combat operations, allow them to take the lead, and 
we will do that when the time is right. The end of 2013 might 
be the time we do that, but that will be a continual assessment 
that goes on.
    We have had open conversations with Secretary Panetta on 
this subject, and I know that is his judgment as well. And I 
think he was stating what his estimate would be right now. And 
we will continue to assess that as we move forward.
    Mr. Johnson. Thank you.
    Mr. Secretary, the fiscal year 2011 defense authorization 
required the Department of Defense to provide Congress with a 
full analysis of alternatives for the Ground Combat Vehicle. We 
still have not received that analysis of the alternatives. And 
when will we get it?
    Secretary McHugh. Well, we are working through the dictates 
of the congressional mandate, but also what would be our normal 
procurement. And part of that, as you just noted, is analysis 
of alternatives, and also an analysis of nondevelopmental 
platforms as well.
    Our current plan, I think, calls for 2014 on the next step 
for that, so hopefully at the end of this year we will have 
some input for you to then get back to you. I don't recall the 
legislation itself had a specific deadline.
    General Odierno. We are aggressively going after this. It 
is not only developmental, but we do want to look at 
nondevelopmental items in this, and that is clearly part of the 
process that we will go through. And once we meet milestone A, 
as part of that will be nondevelopmental potential capabilities 
that we could accept at that time. That is part of this open 
competition that we want to continue to have as we develop 
these systems and programs.
    Mr. Johnson. Thank you.
    And, General, how much is a Ground Combat Vehicle going to 
cost, and at what unit production cost would the GCV [Ground 
Combat Vehicle] become prohibitively expensive?
    General Odierno. I will have to get back to the prohibitive 
part. I am not sure yet. We will have to wait until they give 
us what we think the capabilities of those vehicles will be 
before we understand those costs. But I can give you more of a 
ballpark, and I can get back with you on that, sir.
    [The information referred to can be found in the Appendix 
on page 107.]
    Mr. Johnson. All right. Thank you. And I will yield back. 
And thank you both for your service to the country.
    Mr. Runyan. Thank you, gentlemen.
    The chair will now recognize himself for possibly the last 
question, as long as no one else walks in. But both of you, 
Secretary and General, thank you for being here and your 
testimony.
    I have kind of two questions, but they pertain generally to 
readiness and reset. And obviously, the first question is to 
what extent is it important to maintain the current funding 
level for reset of equipment for home-station training in 
places like in my district we have Joint Base McGuire-Dix-
Lakehurst? Now, despite the planned reduction in well over 
100,000 Army and Marine troops--and the second question is--
kind of relays into that--what is the rationale for the Army's 
decision to increase reset funding over the fiscal year 2012 
appropriated levels despite personnel reductions under the 
fiscal year 2012 budget?
    General Odierno. A couple of things first. The increase has 
to do with as we reset, it is about resetting the equipment 
coming out of Iraq and Afghanistan, and that equipment will be 
used to continue to properly man and equip our Active and 
Reserve Component forces. So if we don't reset this equipment 
properly, we will not--we will not be at the right readiness 
level. So it is absolutely essential that we get this reset 
dollars.
    And the reason it is increased is because of the coming out 
of Iraq, more equipment coming back; the equipment coming out 
of Afghanistan, coming back to the United States. So it is 
important that we have this funded this year.
    Mr. Runyan. It is up there on the priority list.
    General Odierno. It is very high on the priority list for 
us in order for us to stay in our overall range.
    Secretary McHugh. The other thing I would mention, Mr. 
Chairman, on training, we have some risk in training funding 
through this program through 2017. But one of the advantages of 
taking a 5-year look is that each year we have the opportunity 
to reanalyze where we are to make sure that we are financed and 
resourced across the array of needs, and training is a very 
important part of that. So we are going to have to be working 
hard going into 2014, 2015, and particularly 2015 and 2016. And 
we recognize that challenge out there, and it is something we 
are focused on very carefully.
    Mr. Runyan. Just to kind of piggyback off of that, though, 
as we have the need for the reset and, say, the mechanics to do 
that, and we are reducing personnel. Is that well within your 
vision? You are very aware of that? That could be a legitimate 
problem where you have a lot of equipment to fix, and you have 
the funding levels, and you don't have the personnel to do the 
maintenance.
    General Odierno. Part of this is to fund it in our organic 
capability that we have within the Army at our depots and 
arsenals, and that is where we see most of the reset work being 
done. And that is why it is so critical to have the funding. So 
if we don't get the appropriate funding, we will not have the 
people that will allow us to conduct this reset, but it would 
be done by mostly civilian governmental employees that operate 
within our depots, arsenals that will conduct the majority of 
the reset work.
    Secretary McHugh. That really goes back very effectively to 
the conversations we have had a number of times today with 
respect to how do we sustain our organic depots? How do we keep 
places like that employed and up to speed?
    It also underscores the need for OCO funding, because a 
great share of that reset money will come out of those OCO fund 
accounts, and not just while we are at theater war, as we have 
talked earlier today. We need that OCO line for at least 2 
years, we hope 2 to 3 years, after the cessation of 
hostilities.
    Mr. Runyan. Thank you, and that is all I have. We are all 
alone in here. I thank both of you for being here, taking the 
time out, your testimony. This committee looks forward to 
working with you as we service the men and women of our armed 
services. And with that being said, the hearing is adjourned.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 17, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 17, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

             Budget Request from the Department of the Army

                           February 17, 2012

    Thank you for joining us today as we consider the 
President's fiscal year 2013 budget request for the Department 
of the Army. Secretary McHugh, General Odierno, thank you for 
being here. Secretary McHugh, it's great to see you again and 
thank you for your continued service. General Odierno, the 38th 
Chief of Staff of the Army, welcome to your first of many 
posture hearings. Our nation is very fortunate to have you two 
leading our Army during these challenging times. We clearly 
understand the challenges the Department of the Army faced in 
crafting this budget request. And we know you probably wouldn't 
be here if you didn't support it.
    What it boils down to is, based on this budget request, 
what is the risk associated with the Army's ability to meet the 
national security needs of this Nation? This is what we need 
your help with; not only the risks, but the critical 
assumptions behind these risks. Many years ago the Army 
testified in front of the House Subcommittee on Armed Services. 
I'd like to read three quotes from the Army's testimony:

         ``LWe have the best men in the Army today that we have 
        ever had in peacetime. And although we have a number of 
        critical equipment problems yet to solve, I can assure 
        you that our troops, with the equipment they have, 
        would give a good account of themselves if called 
        upon.''

         ``LWithin a fixed budget, the Army can obtain greatest 
        effectiveness only by maintaining a delicate balance 
        between personnel and equipment.''

         ``LWe are supporting this budget that will provide 
        only 10 divisions because we realize the necessity to 
        integrate Army requirements with those of the other 
        services within our national budget. And we will, of 
        course, do everything within our power to lessen the 
        risk that such a reduction must by necessity entail.''

    These statements were made in January 1950. Six months 
later a 500-man-battalion-sized task force from the 24th 
Infantry Division under Lt. Col. Charles Smith, Task Force 
Smith, was rushed to Korea on transport planes to block the 
North Korean advance. You know the rest of the story. Task 
Force Smith was outnumbered 10 to 1 and although they had 
inflicted 127 casualties, the task force suffered 181 
casualties. It's worth noting that more soldiers weren't sent 
with Task Force Smith because the Air Force didn't have enough 
transport planes. It's also worth noting that the 2.36-inch 
bazookas that Task Force Smith fired at the North Korean T-34 
tanks just bounced off and had no effect. The modernized 3.5 
bazooka had been developed at the end of WWII, but was 
terminated because of budget cuts.
    The point is that you can have a well led, trained, and 
equipped force and it can still be ``hollow'' if it isn't 
properly modernized and if you can't get it to the right place 
at the right time. Please help the members of this committee 
understand how under the context of the budget before us, the 
Army is prepared to avoid the mistakes that led to Task Force 
Smith.
    Finally, and I really mean this, I can't think of a better 
team than Secretary McHugh and General Odierno to lead our Army 
during these challenging times. Again, thank you both for your 
selfless service to our Nation. I look forward to your 
testimony.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

             Budget Request from the Department of the Army

                           February 17, 2012

    Mr. Chairman, thank you for holding this hearing today. I 
want to also thank the witnesses, Secretary of the Army John 
McHugh and Army Chief of Staff General Raymond T. Odierno, for 
appearing here today and for their dedicated service to our 
country.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. While this strategic review 
appropriately places a renewed focus on the critically 
important Asia-Pacific region, the Army will continue to play a 
key role in our national defense.
    First and foremost, the Army is still engaged in 
Afghanistan and other places around the world, where our troops 
continue to do a tremendous job. Over the last ten years, the 
Army has been an important part of our efforts to defeat 
violent extremists and ensure our national security. Moving 
forward, your role will be different, but no less important. 
The budget put forth this week affords the Army the opportunity 
to return to full-spectrum training, and ensure we are prepared 
to face the array of threats of the future.
    I have consistently said that we can rationally evaluate 
our national security strategy, our defense expenditures, and 
the current set of missions we ask the military to undertake 
and come up with a strategy that enhances national security by 
spending taxpayer dollars more wisely and effectively. I 
believe this budget meets that goal as well.
    Overall, the defense budget is also fully consistent with 
the funding levels set by the Budget Control Act passed by 
Congress. Although I did not support this act, many members of 
the House Armed Services Committee did, Congress passed it, and 
the Department of Defense has submitted a budget that complies 
with the congressionally mandated funding levels.
    Over the last few years, with the strong support of the 
Army, our military has put together a significant string of 
foreign policy successes, including the death of bin Laden, 
Anwar Al-Awlaki, the elimination of much of Al Qaeda's 
leadership, the end of the war in Iraq, and supporting the 
uprising in Libya. The budget lays out a strategy that will 
enable the United States to build on those successes and 
confront the threats of today as well as in the future.
    I want to thank the witnesses again and I look forward to 
hearing their testimony.

[GRAPHIC] [TIFF OMITTED] T3429.001

[GRAPHIC] [TIFF OMITTED] T3429.002

[GRAPHIC] [TIFF OMITTED] T3429.003

[GRAPHIC] [TIFF OMITTED] T3429.004

[GRAPHIC] [TIFF OMITTED] T3429.005

[GRAPHIC] [TIFF OMITTED] T3429.006

[GRAPHIC] [TIFF OMITTED] T3429.007

[GRAPHIC] [TIFF OMITTED] T3429.008

[GRAPHIC] [TIFF OMITTED] T3429.009

[GRAPHIC] [TIFF OMITTED] T3429.010

[GRAPHIC] [TIFF OMITTED] T3429.011

[GRAPHIC] [TIFF OMITTED] T3429.012

[GRAPHIC] [TIFF OMITTED] T3429.013

[GRAPHIC] [TIFF OMITTED] T3429.014

[GRAPHIC] [TIFF OMITTED] T3429.015

[GRAPHIC] [TIFF OMITTED] T3429.016

[GRAPHIC] [TIFF OMITTED] T3429.017

[GRAPHIC] [TIFF OMITTED] T3429.018

[GRAPHIC] [TIFF OMITTED] T3429.019

[GRAPHIC] [TIFF OMITTED] T3429.020

[GRAPHIC] [TIFF OMITTED] T3429.021

[GRAPHIC] [TIFF OMITTED] T3429.022

[GRAPHIC] [TIFF OMITTED] T3429.023

[GRAPHIC] [TIFF OMITTED] T3429.024

[GRAPHIC] [TIFF OMITTED] T3429.025

[GRAPHIC] [TIFF OMITTED] T3429.026

[GRAPHIC] [TIFF OMITTED] T3429.027

[GRAPHIC] [TIFF OMITTED] T3429.028

[GRAPHIC] [TIFF OMITTED] T3429.029

[GRAPHIC] [TIFF OMITTED] T3429.030

[GRAPHIC] [TIFF OMITTED] T3429.031

[GRAPHIC] [TIFF OMITTED] T3429.032

[GRAPHIC] [TIFF OMITTED] T3429.033

[GRAPHIC] [TIFF OMITTED] T3429.034

[GRAPHIC] [TIFF OMITTED] T3429.035

[GRAPHIC] [TIFF OMITTED] T3429.036

[GRAPHIC] [TIFF OMITTED] T3429.037

[GRAPHIC] [TIFF OMITTED] T3429.038

[GRAPHIC] [TIFF OMITTED] T3429.039

[GRAPHIC] [TIFF OMITTED] T3429.040

[GRAPHIC] [TIFF OMITTED] T3429.041

[GRAPHIC] [TIFF OMITTED] T3429.042

[GRAPHIC] [TIFF OMITTED] T3429.043

[GRAPHIC] [TIFF OMITTED] T3429.044

[GRAPHIC] [TIFF OMITTED] T3429.045

[GRAPHIC] [TIFF OMITTED] T3429.046

[GRAPHIC] [TIFF OMITTED] T3429.047

[GRAPHIC] [TIFF OMITTED] T3429.048

[GRAPHIC] [TIFF OMITTED] T3429.049

[GRAPHIC] [TIFF OMITTED] T3429.050

[GRAPHIC] [TIFF OMITTED] T3429.051

[GRAPHIC] [TIFF OMITTED] T3429.052

[GRAPHIC] [TIFF OMITTED] T3429.053

[GRAPHIC] [TIFF OMITTED] T3429.054

[GRAPHIC] [TIFF OMITTED] T3429.055

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 17, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON

    Secretary McHugh and General Odierno. The Army set an upper limit 
Average Procurement Unit Cost (APUC) for the Ground Combat Vehicle 
(GCV) to do Analysis of Alternatives at $13M. At this time, the program 
is still in the Technology Development phase. During this phase, the 
Army will continue to explore options to perform cost informed trades. 
These trades should reduce overall program life cycle costs and inform 
an updated cost position. The Army will reevaluate the GCV Program and 
affordability at the end of the Technology Development Phase. [See page 
41.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 17, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. As a follow-up to my opening statement with regard to 
defining risk: I know both of you have pledged to avoid mistakes of 
past force reductions, when the Army fielded what were called 
``hollow'' units without enough people and equipment to actually carry 
out their missions. I ask that you not share that burden alone and that 
you work closely with Congress to make sure that doesn't happen. In 
your public and written statements you have said that your challenge is 
to adjust these rheostats--end strength, force structure, readiness, 
and modernization--in such a way where we sustain our technical 
advantage. Any concerns you may have about sequestration 
notwithstanding, and, with the operational and strategic lessons 
learned from Task Force Smith in mind, please describe to us the one 
risk that keeps you up at night (the most) within these rheostats that 
you must keep adjusting. Could you both take a shot at answering this?
    Secretary McHugh and General Odierno. The Army's most challenging 
task will be to balance its grade structure to provide the right mix of 
leadership and technical capabilities, sustainable across a career span 
that will allow us to retain our most experienced and skilled inventory 
of officers serving today. We must keep a cadre of mid-grade officers 
and Non-Commissioned Officers who can provide the core for expansion of 
capability should the world situation demand wider engagement. However, 
the biggest risk of this structure is the increased personnel cost--
higher grades cost more. As personnel costs increase, funds available 
for modernization, equipping, and stationing must decrease. How the 
Army will balance these requirements while sustaining as capable force 
will be our most significant challenge is still being determined.

    Mr. McKeon. We've been told that the Army will eliminate at least 8 
Brigade Combat Teams and that more could be possible. During the Cold 
War the Army was focused on large-scale maneuver operations in Europe. 
Over the last decade the Army has been largely focused on 
counterinsurgency operations in the Middle East. So how does the shift 
in strategic focus where there is more of an emphasis on the Pacific 
region affect Army concepts and operations. In other words, what is the 
Army's role in this Pacific-focused strategy and what force structure 
does the Army need? The reason I ask is because I remain concerned 
about the plans to lower the Army's end strength to pre-9/11 levels. 
General Odierno you spent I believe 54 months in Iraq. You helped build 
up the Army to execute the surge. Even under the concept of 
``reversibility,'' with such a large decrease in end strength, will the 
Army be able to conduct another ``surge'' in the future if needed?
    General Odierno. The Army has determined that it can meet the 
ground force requirements for any of the current warplans in the 
Pacific region under current planned end strength reductions with 
manageable risk and continued investment in readiness. This ensures 
that America can meet its long standing treaty obligations in the 
Pacific region and around the world. The Army's regionally aligned 
forces concept will provide PACOM with a trained force to execute 
theater security cooperation activities and exercises with key and 
emerging partners. These forces, along with our surge force capacity, 
prevent conflict and shape the area of responsibility to advance mutual 
security interests.
    Two large scale long term contingency operations caused the need 
for end strength increases. With the end of our mission in Iraq and 
drawdown of forces we have conducted in Afghanistan, the Army can 
reduce end strength to ensure balance is maintained between end 
strength, readiness and modernization. The planned Fiscal Year (FY) 
2017 Army of 490,000 will be a much more capable force than the Army of 
482,000 pre-9/11. Besides 10 years of hard-earned combat experience in 
our ranks, we continue to increase Special Operations capabilities, 
Intelligence, Surveillance and Reconnaissance (ISR) assets, aviation 
enhancements, and we have invested in a more capable Cyber force along 
with other capabilities. We are reviewing and refining our 
organizational design, mission command, and training methods to 
institutionalize the lessons learned in combat. Should unforeseen 
contingencies arise, the Army maintains the capability to reverse the 
drawdown, and expand if needed.
                                 ______
                                 
  QUESTION SUBMITTED BY MR. MCKEON, MR. BARTLETT, MR. REYES, AND MR. 
                                 BROOKS

    Mr. McKeon, Mr. Bartlett, Mr. Reyes, and Mr. Brooks. The Army 
Improved Turbine Engine Program (ITEP) envisions a significantly more 
fuel-efficient and powerful engine for the Black Hawk and Apache 
helicopter fleet as well as the next-generation Joint Multi-Role 
helicopter. All too often, the Government makes premature selections 
that result in delays, cost increases, and cancelled programs. It is 
important that we manage the ITEP program correctly and competitively 
to ensure technical maturity and operational capability are proven 
before making a decision that will impact the current and future 
helicopter fleet for 40+ years. I believe that competition into EMD 
through Flight Demonstration will reduce risk and cost. In short, ``fly 
before you buy'' will be best for the warfighter and taxpayer as 
competition will incentivize industry to perform and provide the lowest 
cost and best engine to the Government. Can you please explain what 
measures the Army is taking in the ITEP acquisition strategy to ensure 
there is competition beyond the Science & Technology phase and into 
Engineering Manufacturing & Development (EMD)?
    Secretary McHugh and General Odierno. The Army agrees that 
competition in the EMD phase will incentivize industry to perform and 
provide the lowest cost and best product to the warfighter in the 
timeliest manner. Therefore, the Improved Turbine Engine Program 
acquisition strategy promotes competition throughout the EMD phase. The 
acquisition strategy includes a full and open competition approach with 
the intent of selecting two vendors for initial engine design and 
development. This will include ground operation in engine test stands 
and flight tests in Black Hawk and Apache aircraft. A final down select 
is planned for Milestone (MS) C, Low Rate Initial Production. However, 
if the competition through MS C becomes too costly or some of the 
offered solutions are not achievable, provisions will exist in the 
contract for a potential earlier down selection to one vendor.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. The Army's Green Laser Interdiction System (GLIS), is a 
competitively awarded nonlethal weapon system currently in use in 
Afghanistan. What has been the Army's experience with this weapon? In 
what way has this system aided our soldiers in this particular 
contingency operation? What is the Army's acquisition strategy for the 
GLIS system?
    General Odierno. The Army's Rapid Equipping Force (REF) fielded 
several Commercial Off The Shelf (COTS) Green Lasers to units in Iraq, 
Kuwait, and Afghanistan based on Operational Need Statements. Post 
Combat Survey feedback Soldiers believed the green visible laser was an 
excellent nonlethal, escalation of force tool. The green laser serves 
as a warning and is a safe and effective tool that sends a strong 
message without the need to employ deadly force.
    The Army approved the transition of Green Laser Technology from the 
REF as a Capabilities Development for Rapid Transition Army Acquisition 
Program. Product Manager Soldier Maneuver Sensors (PM SMS) conducted a 
full and open competition for the GLIS program. There are two qualified 
GLIS configurations. The L-3/Insight Technology, Inc. Checkpoint Green 
Laser is designated as the GLIS LA-12/P. The B.E. Meyers Glare Mount 
Plus Green Laser is designated as the GLIS LA-13/P. In November 2011, a 
production contract was awarded to B.E. Meyers for 12,542 GLIS systems. 
The first fielding event is scheduled for 3rd Quarter Fiscal Year 2012 
(FY12) and will replace any REF fielded green lasers. In FY12, PM SMS 
will complete procurement of the GLIS requirement between the two 
qualified
vendors.
    Mr. Smith. The option of using nonlethal weapons in an escalation 
of force scenario appears to make sense for many reasons. Does the Army 
have a particular doctrine addressing escalation of force issues and 
the use of nonlethal weapons? Do you believe this is something that the 
Army should consider?
    General Odierno. Yes, the Army has current doctrine that addresses 
the escalation of force and the use of nonlethal weapons. The primary 
Field Manual that covers this topic is FM 3-22.40, ``Multi-Service 
Tactics, Techniques, and Procedures for the Tactical Employment of 
Nonlethal Weapons'' produced by the Air, Land, Sea Applications (ALSA) 
Center, dated October 2007.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. In a letter to Secretary Panetta on January 6 of this 
year, the Committee indicated its grave concerns with the Department's 
apparent change in plans to equip the Afghan Security Forces (ASF). The 
Department initially requested $1.3 billion to procure 6,372 HMMWVs for 
the ASF for Fiscal Year 2011, in addition to another $771 million for 
3,514 vehicles in Fiscal Year 2012. Of the total of 9,886 vehicles, it 
now appears that only 2,763 HMMWVs will be procured, an obvious 
significant reduction in the planned procurement of these vehicles. 
Congress approved this funding, understanding that it would be used to 
ensure the ASF are trained and equipped to adequately defend 
themselves, and an important part of this strategy was providing them 
with modern light tactical vehicles.
    The Committee is also aware that the Department chose to procure 
over 19,000 Ford Rangers for the Afghan National Police (ANP) 
manufactured in a plant in Thailand (some sources report as many as 
twice that number of Thai pickups have been purchased). Instead of 
using funds appropriated by Congress to adequately equip the ANP and 
support jobs here in the U.S., the funding was used to procure foreign-
made vehicles.
    How did the Department determine that these trucks should be 
procured from Thailand without first consulting the Committee? How can 
these Thai-built pickup trucks possibly give the Afghan forces the 
capability to defend themselves against a violent and determined enemy?
    Secretary McHugh and General Odierno. ANSF operational requirements 
are determined through development of the Afghan National Army (ANA) 
and Afghan National Police (ANP) Taskhil and Recapitalization 
Requirements documents. Since 2006, ANSF requirements have been 
continuously reviewed to validate the appropriate number and type of 
vehicles. Most recently, from November 2011 to January 2012, NTM-A and 
CSTC-A conducted an operational review which validated or adjusted all 
requirements based on current and projected inventories. HMMWVs and 
Light Tactical Vehicle (LTVs or up-armored Sport Utility Vehicle) are 
both used to fill various ANSF requirements. Since 2004, the HMMWV has 
been the primary vehicle required by the ANA and some specialized ANP 
units such (as the GDPSU, PRC, ANCOP, etc). The LTV has been the 
primary vehicle for the ANP because: 1) they are smaller and more 
maneuverable in congested urban areas and on small rural roads; 2) they 
present the desired appearance of a professional police force vice a 
para-military appearance; 3) ANP leadership continues to request LTVs 
as their preferred armored vehicle vice HMMWVs; 4) procurement, 
maintenance and fuel cost are lower than HMMWVs and 5) HMMWV 
maintenance and fuel are more complex then LTVs. Force protection is 
only one factor to consider in the procurement of LTVs versus HMMWVs. 
HMMWVs were selected for specific mission sets because of the force 
protection they provide; however, LTVs clearly meet the overall 
requirement of the country-wide poling mission.
    Mr. Turner. One tenet of the Administration's new defense strategy 
is reversibility. According to released documents, the new budget plan 
specifically sustains critical segments of the industrial base that 
cannot be duplicated or regenerated quickly. The strategy identifies 
some of these industries and talks about combat aircraft, bombers and 
of course shipbuilding, all hugely important aspects of national 
security and our economy. What I find puzzling is the lack of mention 
of the U.S. combat vehicle industrial base. My read of the Army's FY 
2013 budget request indicates zero procurement of existing combat 
vehicles such as the Abrams tank and Bradley Fighting Vehicles.
    Can you explain why the new National Defense Strategy ignores the 
combat vehicle industrial base? If a particular parts manufacturer goes 
out of business and they were the only producer of that part, how does 
``reversibility'' take this into account? In some cases, depending on 
the complexity of the part, it can take over a year for a prime 
contractor to get another vendor qualified? What is the risk of 
increasing our vulnerability from an industrial base perspective where 
we will be forcing our prime contractors to depend on foreign sources 
to supply critical parts? Finally, if the Ground Combat Vehicle is the 
Army's number one modernization program, who will build it when it 
enters production if both competitors are essentially out of the combat 
vehicle production business?
    Secretary McHugh and General Odierno. The National Defense Strategy 
(NDS) is written in very broad terms; as the Army implements it, the 
combat vehicle industrial base is one of the key sectors being 
considered and thoroughly evaluated. Reductions in the Nation's forces 
will be structured and paced in a way that will allow the Army to 
surge, regenerate, and mobilize the capabilities and materiel needed 
for any future contingency. In some cases, the Army will be reducing 
capabilities that are of a lower priority. In other cases, the Army 
will invest in new capabilities to maintain a decisive military edge 
against a growing array of threats. Building in reversibility and the 
ability to quickly mobilize will be very important. That means 
reexamining the mix of elements in the ground forces and preserving the 
health and viability of the nation's defense industrial base to 
properly equip those ground forces.
    The combat vehicle industrial base is of significant concern to the 
U.S. Army. Accordingly, we are directing efforts to assess industrial 
base risks and develop various cost-informed mitigation strategies that 
ensure the continuous support to the Warfighter and the health of the 
ground combat vehicle industrial base. These strategies include a 
Department-wide effort to assess the health and risks to the industrial 
bases on a Sector by Sector, Tier by Tier (S2T2) basis. The Army is 
also incorporating mitigation strategies involving the Foreign Military 
Sales (FMS) program to address identified risks. The S2T2 analysis 
seeks to identify critical areas that could constitute single points of 
failure and develop strategies to mitigate the risks identified. The 
FMS program allows our vendors to diversify and balance military with 
commercial business so they can weather the lean years and be in 
position to compete when we start investing in the next generation or 
recapitalize the vehicles we have. FMS sales also help sustain highly 
skilled jobs in the defense industrial base by extending production 
lines and lowering unit costs for key weapon systems.
    The Firm selected to provide the Ground Combat Vehicle (GCV), would 
be required to prove it can manufacture the vehicle on the timeline 
required by the
Department.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The C-27J is critical in supporting ground forces to 
meet the last tactical mile requirements. The Air Force has used a 
combination of larger C-130 cargo planes in conjunction with Army CH-47 
helicopters to support last tactical mile requirements, but these 
alternatives have shown that they are less than adequate to accomplish 
the mission. The C-27J also plays a critical role in our National Guard 
providing airlift capabilities in support of homeland defense mission. 
What is the Army's plan to compensate or fill the gap for the loss of 
the C-27J platform? Will it increase the CH-47's ops tempo, until a 
more adequate alternative is designed? Given the potential divesture of 
C-27J aircraft, what is the plan for filling the missions lost by the 
potential retirement of C-23 Sherpa aircraft? What impact would 
divesture of the C-27J have on the logistical supply chain in theater?
    Secretary McHugh and General Odierno. The Army has a capability 
requirement for intra-theater lift to be provided to ground forces, as 
the Army currently has in Afghanistan. CH-47s are used heavily and 
cannot bear the whole load. To assist us with our requirement, the Air 
Force has agreed to provide fixed wing aircraft for resupply. A 
Memorandum of Agreement signed by the Air Force and Army on 27JAN12 
states ``The Combatant Commander/Joint Force Commander should TACON 
(Tactical Control) an Expeditionary Airlift Squadron or Detachment to 
the Commander, Army Forces who will exercise Tactical Control through 
the Senior Army Aviation Authority. The dedicated Expeditionary Airlift 
Squadron may, at the discretion of the Combatant Commander/Joint Force 
Commander, collocate with an Army Combat Aviation Brigade or Task Force 
to provide tactical airlift for transport of Army Forces time 
sensitive/mission critical equipment, supplies and personnel.'' The Air 
Force assures the Army it will be able to fulfill this requirement with 
their current C-130 fleet. The Air Force commitment to meet the Army's 
intra-theater lift requirement using C-130 aircraft to support Army 
ground forces fulfills this requirement. The Army does not currently 
have or foresee any gaps or shortfalls for intra-theater lift 
requirements or theater logistical supply chain requirements based upon 
this agreement.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. ROGERS

    Mr. Rogers. We believe that increasing the overall Army RDT&E 
budget for Command, Control, and Communications Advanced Technology 
(Program Element 0603006A) line by $40 million is a worthy investment 
in preventing a catastrophic degradation of our ability to defend our 
troops, our allies and our Nation if our weapons systems should sustain 
a cyberattack. The U.S. Army Space and Missile Defense Command's role 
in developing advanced technologies for weapons systems, as well as 
their operational role in training soldiers to operate those systems 
provides a unique opportunity to test systems and train soldiers 
proactively vs. reactively to operate network embedded weapon systems 
in a hostile cyberspace environment. Is the Army's role in securing our 
cyber-dependent systems an area that is programmatically underfunded?
    Secretary McHugh and General Odierno. Defending its networks and 
providing full spectrum cyber operations is a mission area the Army 
works diligently to accomplish every day. Army senior leadership is 
acutely aware that investments in the cyber mission area must be 
sufficient to address the current and growing threat and we believe the 
Army's Fiscal Year 2013 budget request for cyber security is 
appropriately prioritized and balanced.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. In your joint testimony, you state that ``the Army 
National Guard and Army Reserve have evolved into indispensible parts 
of our operational force and ones that we will continue to rely upon to 
provide depth and versatility to meet the complex demands of the 
future.'' And, as Iowans know all too well, the Reserve Components play 
a critical role in homeland security and disaster response.
    Can you explain how the planned reductions in the National Guard 
and Reserve will be implemented through 2017? What criteria will be 
used in determining where, when, and how the reductions will be made? 
What role will DOD's total force policy play in implementing the force 
reduction? Lastly, how will this plan for the force reductions maintain 
the experience and readiness of the operational reserve?
    Secretary McHugh and General Odierno. Our Army has proven after 
more than ten years of war to be the most capable, sustainable and 
decisive land force in the world. The Army National Guard (ARNG) and 
United States Army Reserve (USAR) have been employed as an 
``operational force,'' providing critical land power and rotational 
capacity essential to our efforts. As the Army continues to shape its 
force mix to meet strategic demands, reduce capability shortfalls and 
balance force requirements across all three components, the DOD Total 
Force Policy help guide and inform our efforts.
    Announced reductions in the ARNG and USAR are expected to achieve 
through decreases in the Trainees, Transients, Holdees, and Students 
(TTHS) overhead account in each component and by suspending planned 
Grow-the-Army increases in the USAR. No units will be inactivated to 
achieve the end strength goals (ARNG--350.3K/USAR--205K), thus 
maintaining combat-experienced units built over the last ten years of 
war. The ARNG will begin a phased reduction of its TTHS account in FY16 
and complete it by FY19; the USAR will complete its reductions by FY14.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. In your joint statement you talk about ``Garrison 
Energy'' which is ``the energy required to power Army bases and conduct 
soldier training.'' You say, ``Dependence on fossil fuels and a 
vulnerable electric power grid jeopardize the security of Army 
operating bases and mission capabilities.'' However, your testimony 
does not enumerate what the electric power grid is vulnerable to. Many 
studies show our civilian power grid is critically vulnerable to both 
natural and manmade electromagnetic pulse. Furthermore, reports show 
that domestic military installations receive 99% of their electricity 
from the civilian power grid. But when I look in your summary for what 
the Army is doing to eliminate or mitigate vulnerabilities to electric 
power and our dependence on fossil fuels all I see are references to 
``cool roofs, solar power, storm water management, and water 
efficiency.'' I don't see any evidence in that proposed list of green 
initiative fixes that gives me any confidence that the Army really 
grasps the magnitude and the immediacy of catastrophic danger this 
Nation faces if the civilian power grid in this country went down for 
an extended period as a result of natural or manmade EMP. Does the Army 
know the magnitude of the challenges it would face in trying to carry 
out its core function of defending this Nation and its people if the 
civilian power grid or a substantial part of it went down for an 
extended period, say a month or longer, and has it planned for such an 
event due to natural or manmade EMP? Furthermore, since both the 
military and civilian society are dependent upon the civilian power 
grid, doesn't it make sense that there should be more done to mitigate 
this vulnerability and achieve the security of the electric grid and 
other critical infrastructures that are indispensable to the survival 
of our civilian population and to DOD's military bases alike? If so, 
how is the Army mitigating this vulnerability to their source of 
electricity?
    Secretary McHugh. The Army recognizes the threat to the energy grid 
as a significant vulnerability. To mitigate this risk of a power grid 
failure, it is implementing both doctrinal and technological solutions. 
Earlier this year, the Army adopted energy security as a Campaign 
Objective of the Army Campaign Plan for the first time. By doing so, we 
are ensuring that energy security will be a consideration in everything 
the Army does.
    With regards to protection against Electromagnetic Pulses (EMPs), 
DOD Instruction 3150.09, Chemical, Biological, Radiological, and 
Nuclear Survivability Policy, establishes the requirements for EMP 
survivability. Accordingly, critical infrastructure is designed and 
maintained with an appropriate level of resilience, through measures 
such as hardening. Broader installation capabilities are being 
developed as a part of Army's efforts to increase energy security on 
its installations.

    Mr. Franks. In your joint statement you talk about ``Garrison 
Energy'' which is ``the energy required to power Army bases and conduct 
soldier training.'' You say, ``Dependence on fossil fuels and a 
vulnerable electric power grid jeopardize the security of Army 
operating bases and mission capabilities.'' However, your testimony 
does not enumerate what the electric power grid is vulnerable to. Many 
studies show our civilian power grid is critically vulnerable to both 
natural and manmade electromagnetic pulse. Furthermore, reports show 
that domestic military installations receive 99% of their electricity 
from the civilian power grid. But when I look in your summary for what 
the Army is doing to eliminate or mitigate vulnerabilities to electric 
power and our dependence on fossil fuels all I see are references to 
``cool roofs, solar power, storm water management, and water 
efficiency.'' I don't see any evidence in that proposed list of green 
initiative fixes that gives me any confidence that the Army really 
grasps the magnitude and the immediacy of catastrophic danger this 
Nation faces if the civilian power grid in this country went down for 
an extended period as a result of natural or manmade EMP. Does the Army 
know the magnitude of the challenges it would face in trying to carry 
out its core function of defending this Nation and its people if the 
civilian power grid or a substantial part of it went down for an 
extended period, say a month or longer, and has it planned for such an 
event due to natural or manmade EMP? Furthermore, since both the 
military and civilian society are dependent upon the civilian power 
grid, doesn't it make sense that there should be more done to mitigate 
this vulnerability and achieve the security of the electric grid and 
other critical infrastructures that are indispensable to the survival 
of our civilian population and to DOD's military bases alike? If so, 
how is the Army mitigating this vulnerability to their source of 
electricity?
    General Odierno. On our installations, we are aggressively working 
to improve energy security in three key areas. First, we are taking 
steps to reduce energy demand on Army facilities through energy 
efficient technologies and culture change. By reducing energy demand, 
our installations will be less vulnerable and require less backup power 
to operate in the case of a disruption. Second, we are planning to 
install on-site renewable energy generation and power storage to extend 
the current capabilities of our diesel generator backup power 
capabilities, which will allow extended operations in the event of a 
failure of the commercial electric grid. Finally, we are working to 
develop micro-grid technologies on our installations that will be able 
to prioritize and match critical loads with supply and continue 
operations in the event of a commercial power failure.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. The Army has announced cuts--in vehicles and ISR 
capabilities to name just two areas--that will have an immediate impact 
on troops deployed today. However, this budget asks for $400 million 
for the Medium Extended Air Defense System, or MEADS, which the Army 
has no plans to procure and field.
    In the FY 12 Defense Authorization Act, Congress required a report 
from the Secretary of Defense to Congress on the Department's plan to 
use this year's funds as a final obligation for either ``(1) 
implementing a restructured program of reduced scope or (2) contract 
termination liability costs.'' When can we expect to receive this 
report?
    Secretary McHugh and General Odierno. The report was delivered from 
the Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to Congress on 26 April 2012.

    Ms. Tsongas. I am concerned about the number of injuries caused by 
soldiers carrying heavy loads in combat. Currently soldiers deployed in 
Afghanistan are outfitted with armor that weighs as much as 40 pounds. 
And, when combined with the gear that troops must carry in the field, 
the total weight our soldiers carry can exceed 120 pounds, causing 
skeletal injury just through the mere fact of carrying these materials.
    I understand and appreciate that the Army has made efforts to 
reduce the total load carried in combat, however I am concerned by the 
fact that there is still no formal requirement for lighter-weight body 
armor.
    My question is: Who made the decision to use low-bid contracting 
for body armor and in doing so did they include both the human cost as 
well as the long-term financial cost? If these factors were not 
included in the decision, why not?
    General Odierno. The Army is taking a deliberate holistic approach 
to evaluating the requirements for Soldier Protection. The future for 
Soldier Protection is detailed in the Soldier Protection System (SPS) 
Capability Development Document (CDD). The SPS CDD provides 
requirements for the protection of the entire Soldier, from head to 
toe, and strives to reduce weight in all areas. This document is 
currently being staffed at Headquarters, Department of the Army, and is 
expected to be approved in early Fiscal Year 2013 (FY13).
    The Army has also taken steps to encourage vendors, through the 
contracting process, to lighten the weight of body armor. The Army 
achieved success in reducing the weight of the soft armor used in the 
Generation III (GEN III) Improved Outer Tactical Vest (IOTV) while 
retaining the improved fit for female Soldiers. The most recent 
procurement in FY11 resulted in achieving a reduction of 0.5 pounds (9 
percent weight reduction). All Personal Protection Equipment currently 
under solicitation and in production requires a weight reduction from 
previous versions. In addition to the body armor, we are also 
addressing the weight of the combat helmet. The specification for the 
Advanced Combat Helmet, recently released to Defense Logistics Agency--
Troop Support (DLA-TS), requires a weight reduction of 4 ounces (8 
percent weight reduction).
    The Army is committed to reducing the weight of body armor and 
providing increased comfort for all Soldiers. We are pushing the limits 
of technology to do so while still providing excellent protection.
    These advancements to help lighten the load of our individual 
soldiers are one part of the Army's total comprehensive efforts. The 
Army is now examining at how to distribute loads across a squad of 
soldiers to reduce overall weight of the entire team. This analysis 
will enable squads to carry the load smarter, while still maintaining 
their effectiveness as a fighting unit.
    The Army awards contracts based on best value and puts cost as the 
least important criteria for new body armor. For DLA-TS sustainment 
contracts, the vendors must meet the performance specifications which 
include specific weight limitations.
    Ms. Tsongas. The Army is now approximately 14% female. Pursuant to 
the Department's welcome review of the role of women in combat 
positions, an increasing percentage of women in the Army will need to 
wear body armor in the coming years.
    However, I remain concerned by the fact that our female service 
members are wearing armor which was not specifically designed to fit 
their anatomy. Because of their smaller stature, injuries resulting 
from the excessive weight may be even more severe.
    Last year, General Fuller, former PEO Soldier, told the Air/Land 
Subcommittee that the second-generation tactical vest is fairly 
adjustable and fits female service members better than previous 
iterations. Can you give me an update on any other developments 
pertaining to female body armor? Have there been any advances 
specifically with ceramics? Is the Department collecting and assessing 
data regarding the current armor's use by women in the field which 
could be useful in developing female-tailored armor?
    General Odierno. Current ceramic technology is not able to produce 
multi-curve ballistic plates that can conform to the female anatomy 
while providing effective ballistic protection. However, Natick Soldier 
Research, Development and Engineering Center (NSRDEC) has a Science and 
Technology program called ``Improved Geometry and Sizing for Ballistic 
Plates'' that is researching how best to proceed. This effort is 
expected to provide a geometric database and a statistical analysis of 
body geometry and movement which will serve as the basis for 
establishing templates for the next generation ceramic body armor. The 
requirements gathered from the NSRDEC study will be incorporated into 
the Soldier Protection System, one of our future initiatives.
    From May 2009--April 2010, the Army conducted an anthropometric fit 
and sizing study of 200 female Soldiers that confirmed the extent and 
quality of the body armor fit issues and their adverse impact. To 
correct the issues found in that study, the Army made improvements to 
the Generation II (GEN II) Improved Outer Tactical Vest (IOTV), fielded 
in June 2010. The GEN II IOTV answered most of the concerns that were 
raised by female Soldiers in 2009, including better adjustability in 
the shoulders and hips, to better fit all Soldiers.
    The Army continuously assesses data gathered from Combat Surveys 
and Soldier comments from the field. Improvements are being made 
incrementally to each new revision of the IOTV. Recent improvements in 
Fiscal Year 2011 include procurement of IOTVs that have a weight 
reduction of 0.5 pounds (9 percent weight saving). Also, the Army is 
procuring narrower side plates which enable smaller Soldiers, including 
many females, to get a better fit. All Personal Protection Equipment 
currently under solicitation and in production requires a weight 
reduction from previous versions.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. SHUSTER

    Mr. Shuster. I understand the USD-ATL is currently engaged in 
discussions with his German counterparts to negotiate the termination 
of the MEADS program. When can we expect a report from DOD on the 
program's reduced scope? Last year's Defense Authorization fenced 25% 
of funds for MEADS until such a report was delivered. Roughly, how much 
of the FY12 funding has been spent to date?
    Secretary McHugh and General Odierno. a) According to OSD, the 
report required by Section 235 of the 2012 NDAA is expected to be 
delivered in April 2012.
    b) To date, the U.S. released $86.138M, approximately 25 percent of 
the FY12 funds, to the NATO MEADS Management Agency, the executing 
agent for the MEADS program.
    The OSD-led team, including Army representation, continues to press 
the partners for a restructured program; however, Germany and Italy are 
very firm and consistent on their position to execute the Proof of 
Concept, current plan, approved in October 2011.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. PINGREE

    Ms. Pingree. I am concerned about the recently issued Request for 
Proposal (RFP) for the Joint Light Tactical Vehicle (JLTV) because it 
imposes severe time constraints for producing prototypes for testing. 
These time constraints preclude participation by essentially any 
contractor other than the traditional defense industry manufacturers 
that previously failed to deliver an acceptable vehicle during the 
technical demonstrator effort. For example, the RFP precludes an 
innovative group, led by Ford Motor Company and Future Force 
Innovations, and including Raytheon and others that was willing, 
without any Government funding, to invest $400 million of its own funds 
to produce prototypes for testing. Even companies that have been 
working on a JLTV for 5 or more years will have 1 year (or less) to 
redesign their vehicles and produce prototypes for testing. What are 
your reasons for employing severe time constraints in the RFP? Will you 
consider modifying the RFP to ease the time constraints for producing 
prototypes for testing so that nontraditional, yet highly qualified, 
groups have sufficient opportunity to participate and potentially 
deliver a superior result to that offered by traditional industry? In 
particular, as General Austin recently encased the Flag in Iraq and 
General Allen is scheduled to do the same in Afghanistan well before 
even the present schedule calls for the fielding of the JLTV, what is 
the urgent need that prevents an RFP that enhances competition and 
produces a better, lighter, and cheaper JLTV?
    General Odierno. The current JLTV strategy allows for full and open 
competition and is available to all offerors including vendors such as 
Ford that have not traditionally participated in the military vehicle 
marketplace. After extensive feedback from Industry and Congress, the 
Army and the United States Marine Corps agree that the current strategy 
maximizes competition and sets a level playing field among a wide range 
of no less than six extremely credible vendors. Delaying the RFP 
significantly to benefit one vendor gives the perception that the Army 
is giving preferential treatment to one particular vendor and is unfair 
to the other competitors that have invested significant time and 
resources.
    The JLTV program is well structured to maintain the competitive 
pressure that will constrain cost growth throughout the upcoming EMD 
phase. The strategy carries up to three vendors in a competitive 
environment into low rate initial production. In addition, the current 
acquisition strategy allows for vendors who are not selected or do not 
compete for EMD contracts to submit vehicles for testing, consistent 
with our current schedule for even broader competition during the LRIP 
down-
select.
    Ms. Pingree. The new JLTV acquisition strategy in the RFP relaxes 
the original protection, performance, and payload requirements for the 
vehicle. Why would you relax the base requirements for the JLTV below 
what was mandated in the prior failed effort when other groups appear 
able to meet or exceed the original base requirements in all respects 
at a price meeting the budget necessities of the Army and the Marine 
Corps? Furthermore, why, in these times of fiscal crisis, would you 
provide $65 million to contractors that are being asked to reduce, not 
increase
capability?
    General Odierno. The adjustments that were made to the requirements 
preserved the key core capabilities that JLTV must meets the needs of 
the warfighter by delivering significantly improved payload, 
protection, and performance over our current light tactical vehicle 
fleet, without paying a premium in terms of either cost or schedule for 
only marginally increased capabilities. The new JLTV acquisition 
strategy does not relax the original protection, performance or payload 
requirements for the vehicle. The protection level was actually doubled 
over the Technology Development phase vehicles. The payload remained 
the same, 3,500 pounds for the four door variant and 5,100 pounds for 
the two door variant. The only significant changes were a reduction in 
the threshold for reliability and adjustment of corresponding 
transportability requirements.
    For the Engineering and Manufacturing Development phase, 
reliability was lowered to 2,400 mean miles between operational mission 
failures (MMBOMF). The JLTV schedule provides for over a year of 
additional reliability growth testing in the Low Rate Initial 
Production (LRIP) phase in order to continue our Reliability, 
Availability and Maintainability growth, and a plan to retrofit any 
Reliability Growth design changes into all the LRIP vehicles prior to 
fielding at Initial Operational Capability. By comparison, the current 
MMBOMF for the Up-Armored High Mobility Multipurpose Wheeled Vehicle is 
600-1,200. The reduced MMBOMF requirement for the JLTV is still set at 
a significantly higher performance level than the vehicle it is 
designed to replace.
    The increase in curb weight of approximately 1,000 pounds 
significantly reduced the estimated cost of the vehicle because it 
eliminates the need for exotic materials. Even with this increase, both 
Services will be able to use the JLTV for rotary wing lift operational 
requirements.
    The willingness of the Services to explore what industry could 
deliver in terms of demonstrated capability, and to adjust requirements 
and program plans to ensure an affordable and executable program, 
demonstrates the Services' joint commitment to acquisition reform and 
affordable programs.
    The $65 million ceiling achieves a more appropriate balance of cost 
and risk for both Industry and the U.S. Government. This should 
substantially increase the competition during the EMD phase, further 
driving savings in production.
    Ms. Pingree. The new JLTV RFP states that, ``[i]n EMD Source 
Selection, no credit will be given for proposed performance above 
threshold or at objective levels.'' This sentence was not in the draft 
RFP dated October 3, 2011, but was inserted into the final RFP. This 
change provides absolutely no incentive to design a JLTV that is 
better, lighter, and cheaper than the base requirements. This is a 
particularly puzzling development when the requirements of the RFP's 
new acquisition strategy will permit prototypes that weigh 
substantially more and, in true combat configuration, cost 
substantially more than the original prototypes which, not too long 
ago, were rejected by the Services as too heavy and too expensive. 
Shouldn't our goal be to enhance competition and produce a better, 
lighter, and cheaper JLTV?
    General Odierno. The final RFP does explicitly state that during 
the EMD source selection, proposals will not be given credit for 
performance above threshold values. However, the EMD selection criteria 
must be placed into the broader context of the overall acquisition and 
contracting strategy. The goal in the EMD is to pick up to three of the 
best vehicle designs to carry forward into the selection for 
production. The language in question is intended to limit vendor claims 
about performance, particularly claims that might exceed the approved 
thresholds for performance, because we are initially depending on paper 
proposals and design artifacts rather than demonstrated performance at 
the stage in the selection process. However, where vendors can show 
meaningful facts and data, their proposals would be evaluated as lower 
risk to achieve those thresholds.
    The program's experience during the last phase showed that vendors 
claimed a high performance were not able to subsequently demonstrate 
that performance once they built hardware and began testing. Our 
criteria for EMD are focused on the maturity of the designs that are 
being bid, and the ability of those designs to meet at least threshold 
requirements. We want to avoid giving credit for ``proposed 
performance'' claims that vendors are not able to demonstrate during 
test. However, we do make it clear that the down-select into the Low 
Rate Initial Product will consider performance beyond the threshold for 
a number of factors, including reliability, mobility and curb weight. 
We say that explicitly in the executive summary, so that the vendors 
understand up-front that we are interested in the very best vehicle 
they can build within our cost limits.
    Based on Technology Development (TD) results, we have adjusted 
performance requirements and used lessons learned to reduce vehicle 
costs. The vehicle coming out of the TD phase weighed approximately 
24,000 pounds and had an average procurement unit cost of $475,000. The 
EMD vehicle should weigh approximately 19,500 pounds and have an 
average procurement unit cost of $350,000.
    The current JLTV strategy allows for full and open competition and 
is available to all offerors including vendors such as Ford that have 
not traditionally participated in the military vehicle marketplace. 
After extensive feedback from industry and Congress, the Army and the 
United States Marine Corps agree the current strategy maximizes 
competition and sets a level playing field among a wide range of no 
less than six extremely credible vendors.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. On February 3rd, the subcommittee for oversight and 
investigation held a hearing on Arlington National Cemetery and some of 
the reforms that are ongoing there. Is the Army utilizing best 
practices from the civilian (cemetery) sector as lessons learned to 
avoid pitfalls in the future?
    Secretary McHugh. ANC has developed a mutually-beneficial 
relationship and works cooperatively to share best practices with the 
Veteran Administration (VA) National Cemeteries Administration (NCA). 
This relationship includes sending ANC personnel to the NCA National 
Training Center in St. Louis to receive training on various aspects of 
burial operations. We have sent more than 25 personnel to the NCA and 
private industry training centers (for operating heavy equipment). 
Recently ANC hosted the VA's Deputy Undersecretary for Memorial Affairs 
and personnel from the Virtual Lifetime Electronic Record (VLER) 
Program Management Office (PMO) at a demonstration of our GIS system 
and discussion of our case management methodology. ANC also formed a 
working group with NCA to bring together both organizations for 
continued engagement. During the first meeting, NCA representatives 
visited ANC to discuss the best sharing practices in the areas of 
streamlining ordering headstones, chain-of-custody procedures for 
remains and most effectively leveraging BOSS & ISS to manage cemetery 
operations.
    In addition to these interactions, we are working with American 
Battle Monument Commission, the National Funeral Directors Association 
and other private organizations to begin sharing best practices.

    Mr. Conaway. In the FY2013 President's Budget Highlight paper the 
Army emphasizes the importance of ``The Network'' and states that the 
Network is the Army's foremost investment priority in the 2013 budget. 
Your budget request includes significant funding for programs of record 
such as the JTRS Rifleman Radio and the WIN-T program. Can you expand 
on the importance of the Network Integration Evaluations conducted at 
Fort Bliss, Texas, and what lessons you have learned that are shaping 
your investment strategy?
    General Odierno. Our semi-annual Network Integration Evaluations 
(NIEs) have a two-fold purpose. The first is to remove the integration 
burden from the operational units; the second is to provide an 
operation venue to evaluate new technologies and network capabilities. 
The Army has learned significant lesions from the NIE in not only how 
well the individual systems perform, but how to optimize the entire 
network to harness its power for the Warfighter.
    The Army has already reaped substantial benefits from the NIEs, 
such as informing requirements aligning programs of record, integrating 
systems prior to deployment, and providing an avenue for industry to 
bring in mature capabilities for evaluation. Through the NIE process, 
the Army has successfully brought the operational test, acquisition, 
and requirements communities together to synchronized and streamline 
the evaluation and feedback approach, allowing for more useable test 
date and direct user feedback to acquisition and requirements 
communities.
    For example, by getting, WIN-T into the field in NIE 12.1, we were 
able to identify and correct numerous shortcomings with the system. In 
one instance, company commanders found receipt of data was slow or 
spotty when attempting to receive data on the move and it was 
recommended that more access point be provided throughout the 
battalion. By getting systems like WINI-T into Soldiers' hands for 
their feedback we are reducing risk for Initial Operational Test and 
Evaluation (IOT&E).
    Following each NIE, Training and Doctrine Command and the Army Test 
and Evaluation Command examine capabilities evaluated during the NIEW 
across Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel and Facilities (DOTMLPF). When completed, this 
report will form the basis for Army decisions concerning acquisition, 
as well as identify gaps that can be satisfied with non-materiel 
solutions.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS

    Mr. Owens. Secretary McHugh, you propose with this budget to reduce 
the number of Army Brigade Combat Teams (BCTs) by 8, with two coming 
from Europe. How far along is the Department in determining which U.S.-
based BCTs will be drawn down, and when might your analysis of these 
decisions be made available to Members of Congress, Commanders at U.S.-
based installations and the general public? Will Members or home 
installations have the opportunity to weigh in before these decisions 
go into effect?
    Secretary McHugh. The Army is considering a number of potential 
options, but no final decisions have been made as to which U.S. based 
BCTs will be drawn down. An announcement on specific force structure 
actions is expected sometime before, or in conjunction with, submission 
of the FY14 President's Budget in early February 2013. Subsequently, 
the Army will ensure that appropriate information regarding the draw 
down is timely and effectively communicated to member of Congress.
    Mr. Owens. Secretary McHugh, it should come as no surprise that 
your request for additional BRAC authorizations has been met with some 
resistance from Members of Congress, including myself. I do appreciate 
General Odierno's recent statements that closures of major 
installations are not in the works, and I believe many of us are 
willing to work with the Department if there is unused or otherwise 
excess real-estate on your books. Giving the Department carte blanche 
to begin a process for closing installations, however, is not something 
I for one am open to considering. I have concerns not only for major 
installations here in the U.S., but also for the costs generally 
associated with a BRAC request. Can you give us a range of the 
potential costs for a BRAC round, and are there any details available 
on where the money to pay for such an effort would come from?
    Secretary McHugh. The costs of a future BRAC are directly related 
to the recommendations made by DOD and approved by the BRAC Commission. 
The Army has conducted some preliminary planning however; absent new 
BRAC authority, no recommendation, specific analysis or cost 
projections will be completed. The Army supports additional BRAC 
authority to properly shape existing installation inventory to match 
our evolving strategic and mission requirements. Absent this authority, 
the Army may be forced to retain excess installation infrastructure 
potentially impacting spending on forces, training and modernization.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Secretary McHugh, What role does the Army envision the 
Reserve Component playing under the new strategy and force structure? 
How does the Army intend to provide the ``strong, steady-state force 
readiness'' for the Nation as it rebalances its forces?
    Secretary McHugh. The DOD Total Force policy is a fundamental 
premise upon which our Nation's military strategy is accomplished. In 
support of the new strategy, the Army is planning to use its active and 
reserve forces as an integrated force for operations and within 
prescribed goals for frequency of use and duration of involuntary 
activations of the National Guard and Army Reserve, as established by 
the Secretary of Defense. In addition, the Army will evaluate the mix 
of operating and generating force capabilities between the Active 
Component (AC) and Reserve Component (RC) to support the planning 
objectives for using the Total Force established by the Secretary of 
Defense. Within the parameters of global security conditions and 
combatant commander requirements, the Army will use a common deployment 
cycle (Army Deployment Period) for named operations to facilitate the 
integration of AC and RC forces in support of operations.

    Mr. Wittman. Secretary McHugh and General Odierno, with the 
downsizing of the Active Duty Army, the Guard and the Reserve force 
will be in need of combat experienced mid-grade junior officers and 
NCOs to lead the force through the 21st century. What incentives is the 
Army utilizing in order to attract and keep our best, brightest, and 
most experienced Soldiers to the Reserve force as they transition out 
of the Active Duty Component?
    Secretary McHugh and General Odierno. The United States Army 
Reserve (USAR) and Army National Guard (ARNG) both have the authority 
to pay bonuses ranging up to the statutory maximum of $20,000 for 
enlisted Soldiers in critical skills that transfer from the Active Army 
to the Reserve Components. In addition to cash incentives, some 
Soldiers also qualify for Student Loan Repayment up to $50,000 and The 
Montgomery GI Bill ``Kicker'' which adds up to $350 per month to the 
monthly GI Bill benefit. Active Army officers/Warrant Officers who 
affiliate with the Reserve Components are eligible for up to $10,000 
when leaving the Active Army.
    Active Duty Soldiers must meet with a Reserve Component Career 
Counselor during transition from Active Duty. The Career Counselor 
discusses the benefits and opportunities available to continue to serve 
in the Reserve Component.

    Mr. Wittman. General Odierno, earlier we talked to the Navy and 
Marine Corps team about how they plan to become more flexible and agile 
to execute this new defense strategy focused on the Asia-Pacific and 
Middle East. How does the Army plan to streamline its capabilities to 
respond to the threats of the future? Do you see more airborne infantry 
units? More Army Special Operations Forces? More Ranger Battalions? 
What are the risks associated with cutting conventional Army land 
forces when confronted with the strategy you have to execute?
    General Odierno. The Army will reduce conventional land forces, to 
reshape and transition, while maintaining the capacity to remain 
decisive. We will continue to provide the joint force with a scalable, 
trained, equipped, and ready ground force to meet contingencies and 
succeed in ongoing conflicts. The Army will preserve the current force 
disposition in the Pacific, while supporting all geographic combatant 
commanders' security cooperation strategies with regionally aligned 
forces and capabilities. We will shape the environment through 
engagement, build and maintain global relationships, and increase 
partner capacity and regional security. The Army can meet the ground 
force requirements for any of the current war plans in the Pacific 
region, given continued investment in readiness. However, additional 
reductions of conventional land forces will create a smaller margin for 
error to keep sufficient forces prepared to meet requirements. The 
Army's regionally aligned forces concept enables PACOM's theater 
security cooperation activities and exercises with key and emerging 
partners. These forces, along with our surge force capacity, are key to 
deterrence in the Pacific region. They shape the region and advance the 
security interests of the United States and our allies.
    Army Special Operations Forces make up over 50% of the personnel 
assigned to Special Operations Command (SOCOM). Based on SOCOM and 
theater combatant commanders' requirements, we are addressing the 
anticipated need to increase the mix of special operations forces. Over 
the past years, the Army has increased the capability of airborne 
infantry units and ranger battalions. In the future, we will continue 
to assess and refine the capabilities of these units to improve their 
ability to execute specialized missions. As a result of the 2006 and 
2010 Quadrennial Defense Reviews, the Army Special Operations Forces 
strength will grow from 32,000 personnel to 35,000 by fiscal year 2015. 
This will complete the growth of Army Special Operations Forces from 
26,000 in 2009. While the majority of the growth is within the five 
active component Special Forces Groups, all of the United States Army 
Special Operations Command (USASOC) operational formations either have 
received or are receiving additional growth in both operational and 
organic sustainment capabilities. In addition to the Army's investment 
in Army specific special operations formations, the Army is also 
resourcing personnel across the same period into essential joint 
special operations command and control structures such as theater 
special operations commands. The recent re-emphasis on the role of 
special operations forces within the recently published strategic 
guidance re-confirms the need for this investment.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CRITZ

    Mr. Critz. Last October, I expressed my concern that the 
replacement vehicle for the Vietnam-era M113, which was terminated in 
2007, was not scheduled to enter Low Rate Initial Production until 
2016. I asked why the Army could not adopt a ``Stryker type 
acquisition'' in which the Army was able to award a contract 13 months 
after General Shinseki announced the Army's desire to procure an 
Interim Armored Vehicle. The Army agreed that replacement of our M-113s 
should be accelerated. In fact, they stated that they would look to 
award a replacement vehicle more quickly than the 2016 that was planned 
at the time. As you also know, the NDAA conference report expressed 
concerns about the fact that many of the current tracked or wheeled 
vehicle systems currently in production are scheduled to end before 
2016. Furthermore, the conference report expressed its support for AMP-
V, stated concerns over the long timelines, and offered suggestions on 
how to accelerate the program. As such, I was disappointed to learn 
that the Army budget now doesn't plan to reach Milestone C and L-RIP 
until 2017, a full year later than was proposed last October. So my 
questions are: 1. Does the Army plan to replace the M113 in the Heavy 
Brigade Combat Team with a variant of a vehicle that is already 
currently in the Army inventory? 2. Last fall, I saw prototypes for 
both the MEDEVAC vehicle and the mortar carrier at AUSA; why can't the 
Army adopt a Stryker type acquisition model where the Army calls for 
all candidate vehicles, tests and evaluates them, and awards a contract 
by 2014?
    Secretary McHugh and General Odierno. The Army plans to replace the 
M113 with the AMPV in the HBCT. However, it has yet to be determined 
whether the vehicle will be a variant of a vehicle currently in the 
Army inventory. The acquisition model used during the Stryker program 
was conducted prior to the STET implementation of the Weapon Systems 
Acquisition Reform Act of 2009 (WSARA). STET WSARA the Army is 
currently conducting an Analysis of Alternatives (AoA) for this Major 
Defense Acquisition Program (MDAP). The Army is considering both 
modified and unmodified versions of vehicles that are currently in 
inventory as part of the AoA.
    MDAPs are now also required to go through a Materiel Development 
Decision, which initiates the AoA and completion of the Materiel 
Solution Analysis phase before consideration of an entry into the 
milestone process. WSARA also gave the Joint Requirements Oversight 
Council (JROC) the responsibility to ensure that consideration of 
trade-offs among cost, schedule, and performance objectives are 
conducted for joint military requirements, in consultation with the 
Under Secretary of Defense (Comptroller), the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, and the Director of 
Cost Assessment and Program Evaluation (CAPE). The results of these 
assessments cannot be completed until CAPE has certified the AoA 
results.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. SCHILLING

    Mr. Schilling. Secretary McHugh, I wrote a letter along with 
Congressman Loebsack to the Installation Command (IMCOM) asking for 
information about positions that were to be cut at the Rock Island 
Arsenal Garrison. This letter has not yet been answered and the 
Garrison is now facing not only a loss of institutional memory by those 
in senior positions retiring, but also the ability to make sure that 
the knowledge and capability cannot be passed on before those 
retirements because of a hiring freeze.
    Secretary McHugh. Can you clarify when IMCOM will come to a final 
decision on the position reductions at all facilities within the Army 
and specifically at Rock Island Arsenal?
    The IMCOM-wide force structure program review conducted January and 
February, 2012, rebalanced civilian resources across several IMCOM 
Garrisons, to include Rock Island Arsenal. As a result, the Rock Island 
Arsenal garrison received an additional 23 civilian OMA Direct-funded 
authorizations for a total of 258 authorizations. The rebalance right-
sized the garrisons to support mission critical/mission essential tasks 
through FY2015 and will serve as the baseline.
    IMCOM Garrison Commanders are taking necessary actions to reshape 
and rebalance their civilian workforce to meet their civilian 
Operations and Maintenance; Army (OMA) authorized end-strength levels 
while mitigating adverse impact on the workforce and the accomplishment 
of the Garrison's mission.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER

    Mr. Ruppersberger. Mr. Secretary, the 2-star general that commanded 
RDECOM recently retired and was replaced with the civilian level 
equivalent. What was the rationale for this decision?
    Secretary McHugh. The Army leadership made the decision to turn 
over the U.S. Army Research, Development and Engineering Command to a 
civilian to enhance the continuity and stability of the organization 
and its workforce. A Senior Executive Service employee, Dale E. Ormond, 
succeeded Major General Nick Justice, the Commanding General, as 
RDECOM's director on February 10, 2012.
    General officers were routinely assigned to RDECOM for one to two 
years. Such short tour lengths were not conducive for effecting the 
kind of enduring changes that could potentially benefit the Command. 
The leadership decision was also based on the Army's recognition of a 
need for a developmental process to groom leaders to direct this 
technically complex R&D organization. Previously, commanders came from 
various backgrounds like Acquisition or Infantry. Continuity and 
stability are critical to the transformation and adaptation of RDECOM's 
mission and to gain efficiencies. The Army leadership decided that a 
civilian director at the helm of RDECOM at this time would greatly aid 
in that effort.
    Mr. Ruppersberger. As you are aware, the GAO has found that the 
escrow account set up for Enhanced Use Leases is in violation of 
Section 2667 of Title 10 and the funds received from these EULs must be 
deposited into an account at the Treasury. It is my understanding that 
the funds in this account will be distributed at your discretion. Will 
these funds be used to augment the yearly funding that bases would 
receive or will it be distributed in addition to the yearly amount?
    Secretary McHugh. According to 10 USC 2667(e)(1), the Secretary 
shall deposit lease proceeds in a special account in the Treasury and 
such proceeds shall be available to the Secretary for the following: 
(i) Maintenance, protection, alteration, repair, improvement, or 
restoration (including environmental restoration) of property or 
facilities; (ii) Construction or acquisition of new facilities; (iii) 
Lease of facilities; (iv) Payment of utility services; (v) Real 
property maintenance services. At least 50 percent of the proceeds 
deposited in the special account established for the Secretary 
concerned shall be available for the activities described above only at 
the military installation or Defense Agency locations where the 
proceeds were derived.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN

    Mr. Runyan. Mr. Secretary, I see that as part of this year's 
budget, you have submitted a request for approval to enter a second 
multiyear contract for the H-47 Chinook helicopter. Since you've been 
using a multiyear for Chinooks for the past 5 years and I understand 
that one will expire this year, what have you seen as the biggest 
benefits for you and the taxpayer of having this authority that has led 
you to request a second multiyear contract?
    Secretary McHugh. The biggest benefit from the multi-year contract 
was the realized savings of: $449 million on the base contract for 181 
CH-47F aircraft for Fiscal Year 2008-2012. This firm fixed price multi-
year contract has executed on cost and delivered on schedule. In 
addition to the base contract savings, the program office procured 34 
option aircraft for an additional $86 million in savings. The second 
requested multi-year contract is projected to yield 10 percent savings, 
or $373 million.
    Mr. Runyan. Mr. Secretary, the Army's use of dedicated airborne 
tactical ISR systems to maintain intelligence overmatch for counter-IED 
and counterinsurgency missions has been and continues to be vitally 
important to core BCT operational success. Have you resolved yet with 
the Air Force leadership, in your interdepartmental deliberations on 
roles and missions to maintain this critical capability within the 
Army? If so, what is the role of the Enhanced Medium Altitude 
Reconnaissance and Surveillance System (EMARSS) program of record in 
support of your strategy in this area?
    Secretary McHugh. The Army agrees that dedicated airborne tactical 
1SR systems are critical to support IED and counterinsurgency mission. 
The Army has not yet resolved with the Air Force the roles and mission 
to maintain this capability and meet requirements. While the EMANSD 
program was terminated due to affordability, the Army must continue to 
assess other options and potential investment strategy to meet critical 
requirement.
    Mr. Runyan. Mr. Secretary, is the Armed Aerial Scout program an 
Army priority? Can you discuss the way ahead for an evaluation of the 
different capabilities available from industry?
    Secretary McHugh. The Armed Aerial Scout (AAS) remains a top 
equipping modernization priority for the Army. The Army's current armed 
scout helicopter, the OH-5SD Kiowa Warrior is more than forty years old 
and has been modified extensively over its lifetime. The OH-5SD is 
underpowered and becoming increasingly obsolete and difficult to 
upgrade, modify or modernize.
    In July 2009, the Defense Acquisition Executive (DAE) directed the 
Army to conduct an Analysis of Alternatives (AoA) to meet AAS 
capabilities requirements. Initial efforts for the AoA began in October 
2009. Phase I determined that Manned-Unmanned Team alternatives best 
filled the capability requirements for the AAS capability. The Phase II 
AoA includes further analysis that refines alternatives to inform 
competitive prototyping efforts. The results from Phase II of the AoA 
are expected to be released in the second quarter of Fiscal Year 2012 
and will inform the way ahead for evaluating capabilities available 
from industry.

    Mr. Runyan. General Odierno, for a number of years members of this 
committee have heard from Army leaders and soldiers that they need 
lighter-weight body armor. During testimony last year I was told that 
the Army was pursuing lighter-weight body armor. I asked what steps are 
being taken to both reduce the weight of body armor and to develop 
products that better fit female soldiers. In my recent conversations 
with industry I am told that the Army, despite years of talking about 
it, still has no requirement for either lighter-weight body armor or 
for armor that better fits female soldiers. I was also told that the 
military is entering into a long-term contract that has no incentive 
for lighter-weight body armor. Why is there no requirement for either 
lighter-weight body armor or armor tailored to female soldiers? Is this 
just inertia or is there a regulatory or legal obstacle? Who is 
responsible for the decision not to incentivize industry to develop 
lighter-weight body armor?
    General Odierno. The Army has been successful in providing better 
fit body armor for females as well as incrementally lightening the 
weight of body armor. Further, we have experienced no legal or 
regulatory obstacles to pursuing the best body armor for our Soldiers. 
Finally, the Army has taken steps to encourage vendors to develop 
lighter body armor.
    From May 2009--April 2010, the Army conducted an anthropometric fit 
and sizing study of 200 females Soldiers that confirmed the extent and 
quality of the body armor fit issues and their adverse impact. To 
correct the issues found in that study, the Army made improvements to 
the Generation (GEN) II Improved Outer Tactical Vest (IOTV), fielded in 
June 2010. The GEN II IOTV answered most of the concerns that were 
raised by female Soldiers in 2009, including better adjustability in 
the shoulders and hips, to better fit all Soldiers. The Army is also 
procuring narrower side plates which enable smaller Soldiers, including 
many females, to get a better fit.
    The Army also motivates vendors, through the contracting process, 
to lighten the weight of body armor. The Army also achieved success in 
reducing the weight of the soft armor used in the GEN III IOTV while 
retaining the improved fit for female Soldiers. The most recent 
procurement in Fiscal Year 2011 (FY11) resulted in achieving a 
reduction of 0.5 pounds (9 percent weight reduction). All Personal 
Protection Equipment currently under solicitation and in production 
requires a weight reduction from previous versions.
    In addition to the body armor, we are also addressing the weight of 
the combat helmet. The specification for the Advanced Combat Helmet, 
recently released to Defense Logistics Agency--Troop Support (DLA-TS), 
requires a weight reduction of 4 ounces (8 percent weight reduction).
    The Army is committed to reducing the weight of body armor and 
providing increased comfort for all Soldiers, and we are pushing the 
limits of technology to do so while still providing excellent 
protection. The Army is taking a deliberate holistic approach to 
evaluating the requirements for Soldier Protection. The future for 
Soldier Protection is detailed in the Soldier Protection System (SPS) 
Capability Development Document (CDD). The SPS CDD provides 
requirements for the protection of the entire Soldier, from head to 
toe, and strives to reduce weight in all areas. This document is 
currently being staffed at Headquarters, Department of the Army, and is 
expected to be approved in early FY13. The Army awards contracts based 
on best value and puts cost as the least important criteria for new 
body armor. For DLA-TS sustainment contracts, the vendors must meet the 
performance specifications which include specific weight limitations.
    Mr. Runyan. General Odierno, I believe the Army could keep this 
committee informed about military body armor--specifically small arms 
protective inserts (ESAPI), the hard body armor worn by our soldiers. 
For many years this committee has held hearings and legislated on body 
armor, yet despite our years of interest, I was recently informed by 
industry that the Army has a new requirement for body armor. 
Specifically I am told that the Army has determined that the product 
description for ESAPI was changed and a new threat round was added to 
the package of threats that ESAPI must defeat. I have also heard from 
industry that some of the manufacturers who have produced ESAPI do not 
have a solution for the new threat and that their previous ESAPI does 
not reliably stop the new threat. These are manufacturers who have 
fulfilled a significant part of the ESAPI requirement over the years. 
Interestingly, I understand that the Army, for what appears to be 
convenience, has decided not to change the name of ESAPI, the national 
stock number, or the color of the product. If there is a new threat and 
the Army is adopting to the realities of the battlefield I applaud you. 
My concern is that if this threat is real, how do we ensure that every 
soldier gets the ESAPI that stops the threats that the Army has 
identified on the battlefield and how long will it be before every 
soldier gets the new body armor? Also, do you have any concerns that a 
soldier may not get the best body armor because the supply sergeant is 
unable to tell the two ESAPIs apart?
    General Odierno. The Army has great confidence that currently 
fielded ESAPI plates protect Soldiers against small arms projectile 
threats on the battlefield. To our knowledge, the Interceptor Body 
Armor has never failed to stop a small arms ballistic threat for which 
it was designed. The Army made the decision to update the small arms 
threat baseline to the current ESAPI performance specification because 
it gives us the opportunity to test against a round that is in U.S. 
inventory. This specification will better protect our Soldiers from 
fratricide, accidental discharges, and enemy capture of U.S. and 
similar NATO ammunition. Stopping the additional bullet in the threat 
baseline could stop a future enemy bullet of similar size and velocity. 
The name, stock number, and color are unchanged because most ESAPI 
plates currently in inventory and all ESAPI plates currently in 
production already stop the additional threat. Those in inventory that 
do not stop it are identified by visual inspection of the manufacturer 
and lot number during routine scanning before deployment and during 
mid-tour leave and set apart for training use only. We anticipate that 
all plates in theater will conform to the new standard by the 1st 
Quarter of Fiscal Year 2013.
    Mr. Runyan. General Odierno, as you may know I serve on this 
Committee and the Veterans Affairs Committee and I am concerned about 
the number of injuries caused by soldiers carrying heavy loads in 
combat. These heavy loads are injuring large number of soldiers at 
immeasurable human cost as well as a significant financial cost that 
will be borne by the Veterans Administration for generations as these 
people receive the care they deserve. I understand that the Army has 
made efforts to reduce the total load carried in combat, however I am 
concerned that the Army does not have an integrated approach to 
reducing the weight carried by soldiers. As an example, there is still 
no formal requirement for lighter-weight body armor. I am also told 
that the weight of body armor is increasing because manufacturers are 
using heavier, less expensive materials because of the military's 
decision to award contracts based on lowest cost. Who made the decision 
to use low-bid contracting for body armor and in doing so did they 
include both the human cost as well as the long-term financial cost? If 
these factors were not included in the decision, why not?
    General Odierno. The Army does not base awards for new body armor 
on lowest cost, nor do they include `human cost' as a criterion. These 
contract awards are based on best value and puts cost as the least 
important criteria. Once body armor is in sustainment, the Defense 
Logistics Agency requires vendors to meet the performance 
specifications which include specific weight limitations.
    The Army is committed to reducing the weight of body armor and 
providing increased comfort for all Soldiers. We are pushing the limits 
of technology to do so while still providing excellent protection.
    From May 2009-April 2010, the Army conducted an anthropometric fit 
and sizing study of 200 females Soldiers that confirmed the extent and 
quality of the body armor fit issues and their adverse impact. To 
correct the issues found in that study, the Army made improvements to 
the Generation (GEN) II Improved Outer Tactical Vest (IOTV), fielded in 
June 2010. The GEN II IOTV answered most of the concerns that were 
raised by female Soldiers in 2009, including better adjustability in 
the shoulders and hips, to better fit all Soldiers. The Army is also 
procuring narrower side plates which enable smaller Soldiers, including 
many females, to get a better fit.
    The Army also motivates vendors, through the contracting process, 
to lighten the weight of body armor. The Army also achieved success in 
reducing the weight of the soft armor used in the GEN III IOTV while 
retaining the improved fit for female Soldiers. The most recent 
procurement in Fiscal Year 2011 (FY11) resulted in achieving a 
reduction of 0.5 pounds (9 percent weight reduction). All Personal 
Protection Equipment currently under solicitation and in production 
requires a weight reduction from previous versions.
    In addition to the body armor, we are also addressing the weight of 
the combat helmet. The specification for the Advanced Combat Helmet, 
recently released to Defense Logistics Agency, requires a weight 
reduction of 4 ounces (8 percent weight reduction).
    The Army is taking a deliberate holistic approach to evaluating the 
requirements for Soldier Protection. The future for Soldier Protection 
is detailed in the Soldier Protection System (SPS) Capability 
Development Document (CDD). The SPS CDD provides requirements for the 
protection of the entire Soldier, from head to toe, and strives to 
reduce weight in all areas. This document is currently being staffed at 
Headquarters, Department of the Army, and is expected to be approved in 
early Fiscal Year 2013.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SCOTT

    Mr. Scott. How would you describe the relationship between the U.S. 
Army and the Republic of China Army? What impact does the ban on U.S. 
general officers visiting Taiwan have on enhancing and building upon 
this relationship?
    General Odierno. The U.S. Army and Taiwan Army currently enjoy a 
strong, stable, and mutually beneficial relationship. Within the long-
standing constraints of this relationship, our two sides have managed 
to develop a wide array of security cooperation programs. The Taiwan 
Army's acquisition of AH-64 Apache helicopters and the establishment of 
a pilot training detachment in the United States is one of our most 
recent and noticeable successes. Taiwan's soldiers are also offered 
many other training opportunities at U.S. Army training institutions, 
including the U.S. Military Academy, the Army War College, and nearly 
every functional training center. The U.S. Army, Pacific, cooperates 
with the Taiwan Army to execute a series of annual military-to-military 
exchanges to share professional insights, tactics, techniques and 
procedures of mutual benefit. Despite the ban on U.S. general officers 
visiting Taiwan, we manage to maintain strong ties with Taiwan Army 
senior leaders and take maximum advantage of every Taiwan Army general 
officer visit to the U.S.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. Secretary McHugh, on January 5, the Secretary of 
Defense issued a new strategic plan entitled, ``Sustaining Global 
Leadership: Priorities for a 21st Century Defense.'' Several missions 
listed seem perfectly tailored for our National Guard and Reserve 
forces.
    Could you please explain what role DOD's total force policy will 
play in implementing this new strategic policy?
    Do you think the Army budget submission reflects a true total force 
policy?
    Secretary McHugh. The DOD Total Force policy is a fundamental 
premise upon which our Nation's military strategy is accomplished. The 
Army will use its active and reserve forces as an integrated force to 
support the Total Force Policy and New Strategy.
    The Army's FY13 budget submission maintains a robust Reserve 
Component end strength with proportionally fewer cuts than that of the 
active component.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY

    Mrs. Roby. Due to the need for reduction of forces in the Army, 
what will the Department of Army do to ensure as General Dempsey 
pointed out in his testimony earlier this week as need to ``help our 
veterans find education opportunities, meaningful employment, and first 
class heath care.'' He continued by saying that this is not ``exclusive 
responsibility of the Services or veterans organizations.''
    What is the plan of the Army in both internally and across other 
Federal agencies to ensure that military personnel transitioning out of 
the military are equipped with the necessary training and education to 
obtain employment? I am particularly concerned since the unemployment 
rate for young Iraq and Afghanistan veterans is 22% and for wounded 
veterans is 41%.
    Secretary McHugh and General Odierno. The mandates of the Veterans 
Opportunity to Work Act of 2011(or VOW Ac) and the Presidential Task 
Force on Veteran Employment Initiatives which mandated the Transition 
Assistance Program (TAP) for all separating Soldiers will nearly triple 
the throughput of Soldiers in Army Career and Alumni Program (ACAP). As 
such, we are looking internal to the Army and Department of Defense for 
the funds to support this effort. The Army is currently in the 
Budgetary Review Process to identify the resources requirements needed 
to implement a new transitions training and services delivery model. 
The training and support provided to transitioning Soldiers will ensure 
Army Veterans are ``career or education ready'' prior to leaving active 
duty and that they have the skills they need and deserve when they 
return to civilian life.
    In order to meet the increased Soldier throughput and fulfill the 
VOW requirements, ACAP is addressing the situation from three avenues 
of approach. First, we will reinforce our existing infrastructure. We 
currently have 54 ACAP centers with 200 counselors with a plan to 
increase the number counselors. Workload requirements dictate a need 
for several hundred counselors: however, leadership involvement and 
virtual usage will reduce that requirement.
    Next, we will utilize Forward/Mobile Transition Support Teams 
positioned away from Army installations to support Soldiers and units 
that are geographically dispersed. Half of the transitioning Army force 
completes their transition away from an installation. Lastly, we have 
already stood up the virtual ACAP center with a 24/7 call center where 
Soldiers may contact a certified transition counselor anytime from 
anywhere. Transition preparation can also take place in a virtual room 
where Soldiers may access online classes that are the same as the 
training at a physical ACAP center.
    Mrs. Roby. How will this budget impact the need to modernize our 
current rotary wing fleet as well as the need to develop the next 
generation of rotary wing?
    Secretary McHugh and General Odierno. The Fiscal Year 2013 
President Budget (PB) (Base and Overseas Contingency Operations funding 
requests) requests $7.5B in Army Aviation and supports continued 
modernization of Army Aviation fleets. For example, the PB13 request 
procures 40 remanufactured and 10 new AH-64D Block III aircraft, 16 new 
OH-58D aircraft, 25 new CH-47F aircraft and 19 new CH-47F airframes 
with limited recap components, 35 new UH-60M and 24 new HH-60M 
aircraft. The procurement and recap programs will facilitate rotary 
wing modernization within the Army, but necessary fiscal constraints 
decrease our production plan and hence fielding by three to five years 
in the long term by reducing quantities in the near term. Additionally, 
we have accepted some operational risk since the reduced modernization 
rate will not afford us the ability to make-up for pre-existing fleet 
shortages for some time to come.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
